<html>
<title> - DEVELOPMENT OF THE IRAQI POLICE SERVICE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





                         [H.A.S.C. No. 110-57]

                DEVELOPMENT OF THE IRAQI POLICE SERVICE

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                              MAY 24, 2007

                                     
                    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]






                                 -----


                     U.S. GOVERNMENT PRINTING OFFICE

38-111                     WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


















               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                 MARTY MEEHAN, Massachusetts, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
VIC SNYDER, Arkansas                 ROSCOE G. BARTLETT, Maryland
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        JEFF MILLER, Florida
ROBERT ANDREWS, New Jersey           PHIL GINGREY, Georgia
SUSAN A. DAVIS, California           K. MICHAEL CONAWAY, Texas
JIM COOPER, Tennessee                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
               Suzanne McKenna, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                     Sasha Rogers, Staff Assistant
































                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Thursday, May 24, 2007, Development of the Iraqi Police Service..     1

Appendix:

Thursday, May 24, 2007...........................................    41
                              ----------                              

                         THURSDAY, MAY 24, 2007
                DEVELOPMENT OF THE IRAQI POLICE SERVICE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     4
Meehan, Hon. Marty, a Representative from Massachusetts, 
  Chairman, Oversight and Investigations Subcommittee............     1

                               WITNESSES

Swengros, Col. Richard W., Assistant Commandant, U.S. Army 
  Military Police School, U.S. Army; Col. Robert J. Coates, 
  Assistant Chief of Staff for Training and Experimentation 
  Group, First Marine Expeditionary, U.S. Marine Corps; and Lt. 
  Col. Robert E. McCarthy, Executive Officer, Fifth Marine 
  Regiment beginning on..........................................     5

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    49
    Coates, Col. Robert J........................................    57
    Meehan, Hon. Marty...........................................    45
    Swengros, Col. Richard W.....................................    52

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Meehan...................................................    75


























 
                DEVELOPMENT OF THE IRAQI POLICE SERVICE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                            Washington, DC, Thursday, May 24, 2007.
    The subcommittee met, pursuant to call, at 9:11 a.m., in 
room 2212, Rayburn House Office Building, Hon. Marty Meehan 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MARTY MEEHAN, A REPRESENTATIVE FROM 
     MASSACHUSETTS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS 
                          SUBCOMMITTEE

    Mr. Meehan. Good morning. Today the Subcommittee on 
Oversight and Investigations meets to continue its examination 
of the development of Iraqi Security Forces. The focus of 
today's hearing is Iraqi Police Service, or IPS.
    The discussion of the Iraqi Security Forces tends to focus 
on the Iraqi army and the national police, but there is also a 
large Iraqi Police Service force that is intended to carry out 
a community policing function. They are the traffic cops, the 
patrolmen and the local beat cops who are essential to the 
counterinsurgency effort as well as establishment of the rule 
of law. We have witnesses here today who have been working 
directly with the IPS and can tell us about their experiences 
in advising and mentoring them.
    Before we get to our witnesses, I want to bring the 
subcommittee up to date on the status of the Defense 
Department's compliance with our first document request, given 
the discussion that we had in the subcommittee on Tuesday.
    On March 20th, Mr. Akin and I asked for four documents that 
we considered essential to studying the development of the 
Iraqi Security Forces. Among other documents, we asked for the 
classified April 2006 Joint Multinational Forces-Iraq and U.S. 
Embassy Baghdad Campaign Plan as well as its predecessors and 
any subsequent revisions to it. Yesterday, we received some of 
the documents we requested including part of the Joint Campaign 
Plan. We anticipate receiving the campaign plan annexes 
shortly.
    The bad news is, before we received a copy, we already read 
yesterday's Washington Post article outlining the details of 
the plan that will replace the 2006 Joint Campaign Plan. In 
other words, March 20th we asked for the documents and 
yesterday we read about it in the Washington Post; and I am 
concerned that the press had access to this before anyone in 
Congress saw it, and I do believe the DOD should pursue the 
leakers to the full extent of the law.
    That having been said, we have been assured that once 
Secretary Gates signs off on the strategy, it will be delivered 
to us immediately.
    The new plan, if approved by Secretary Gates, appears to 
contain a notable shift. As reported in the Post, the new plan 
shifts the immediate emphasis of military operations away from 
transitioning to Iraqi Security Forces. The Post goes on to say 
that one of the sources of the article--and apparently there 
are many sources, some quoted by name--have said that the 
United States drive to make Iraqi forces independent has 
already limited U.S. leverage.
    Needless to say, the subcommittee will need additional 
information regarding the new plan and in particular, its 
reported annex on ISF policy.
    Moving to today, we had hoped to have two panels of 
witnesses. We had asked the Department of Defense to provide 
appropriate witnesses who could talk about the DOD plans and 
efforts to establish, plan and assess the progress of the Iraqi 
Police Service. I asked specifically that witnesses be able to 
provide testimony on the following issues:
    The IPS's role in and contributions to stabilizing the 
security conditions in Iraq; IPS's role in the 
counterinsurgency effort; and how the IPS is managed between 
the Ministry of Interior and provincial governments.
    Unfortunately, the DOD responded that the one witness who 
could meet the subcommittee's need for this first panel is 
Lieutenant General Martin Dempsey, and since General Dempsey 
could not be here today, we asked for witnesses who have been 
very involved in the development of ISF and IPS who are located 
in the Washington area. Specifically, we asked if General 
George Casey could testify.
    Before becoming Army Chief of Staff, General Casey was the 
commander of the Multinational Force-Iraq and he reportedly 
declared the year 2006 as the ``Year of the Police.''
    We also asked for General Chiarelli, who currently is 
serving at the Pentagon. General Chiarelli was the previous 
commander of the Multinational Corps in Iraq. The Multinational 
Corps commander assumes the operation and control of the ISF 
units once they have been formed, and he could have provided 
his insight into the importance of developing a capable and 
professional police force.
    I think either general could have helped us better 
understand the evolution and development of the ISF and the 
IPS. So there will be no first panel today to discuss the 
Department's plans to establish the IPS.
    In reference to our requests for this past Tuesday and 
today, Secretary Gates assures us that General Dempsey will 
appear before the subcommittee on June 12th. After hearing 
about the plans, policy and progress of IPS development, we 
wanted to hear about how this actually works on the ground.
    We appreciate that, for our second panel, the Department 
has allowed us those people who have hands-on experience to 
join us. I would ask witnesses for the second panel to join us 
at the witness table now.
    We are very pleased to have several witnesses today who can 
discuss their personal experiences in the development of IPS. 
General Richard Swengros oversees the training of the Army 
police transition teams as the Assistant Commandant of the U.S. 
Army Military Police School at Ford Leonard Wood Missouri. He 
also established the Police Partner Program when he served in 
Iraq as Commander of the 42nd Military Police Brigade from 
November of 2004 to November 2005.
    Colonel Robert Coates served as Assistant Chief of Staff 
for the 1st Marine Expeditionary Force and was responsible for 
supporting the transition teams working with ISF in Al Anbar 
Province. Now he is the Assistant Chief of Staff of the 
Training/Experimentation Group and is overseeing Police 
Transition Team training for the 1st Marine Expeditionary 
Force.
    Lieutenant Colonel Robert McCarthy, also from the Marine 
Corps, has returned this past February after serving as a 
Police Transition Team leader in Al Anbar.
    We also have 1st Lieutenant Cadetta Bridges, who serves as 
the Headquarters Detachment Commander of the 372nd MP Battalion 
of the DC National Guard. Lieutenant Bridges returned from Iraq 
in February after serving as a Police Transition Team 
coordinator in Baghdad.
    Finally, joining us is Lieutenant Colonel Brad Felling of 
the Air Force who just returned from four months in Iraq last 
Wednesday. We are pleased that, on late notice, Colonel 
Felling, after returning Wednesday, is here before this 
committee.
    I want to thank all of you for your outstanding service to 
the United States and thank all of you for being here. And we 
look forward to your testimony.
    I would note that Colonel Swengros and Colonel Coates have 
prepared statements that will be made a part of the record; and 
we will turn to you two gentlemen for any brief opening 
statements that you can make, following Mr. Akin.
    To encourage discussion, we would like to follow the same 
procedures that we have been following in the committee, and 
that is that we will dispense with the five-minute rule during 
the hearing, so there can be some give-and-take with the 
outstanding witnesses that we have. I would also like to remind 
everyone that this is an open hearing so no classified 
information should be discussed.
    Before I turn to Mr. Akin for any opening remarks, I would 
like to take a moment to share news from Iraq. It drives home, 
I think, how critical and dangerous the mission that we are 
discussing is. Last week an Air Force staff sergeant, John 
Self, was killed in Iraq; and he was a part of a police 
training team much like the ones that we are discussing here 
today. And all of our thoughts are with his family. He was on 
his fourth tour in Iraq.
    Now I would like to turn to my partner on this committee, 
Mr. Todd Akin, for any remarks that he would have.
    [The prepared statement of Mr. Meehan can be found in the 
Appendix on page 45.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Thank you, Mr. Chairman. And good morning to our 
witnesses. Thank you all for coming. We are looking forward to 
your comments.
    Over the course of this investigation, it is becoming 
increasingly apparent that the Iraqi Police Service, the IPS, 
nominally part of the Iraqi Security Forces, is really a unique 
organization that requires its own analysis and discussions 
separate from the Iraqi army or the National Police. Despite 
being critical to our effort in Iraq and the fact that nearly 
half the security forces we have trained belong to the Iraqi 
Police Service, it has been remarkably difficult to get 
information about the efforts of the police transition teams. 
Along that vein, I want to thank the Department for supporting 
this important hearing and the ones to follow in June.
    If defeating sectarianism and marginalizing militias are 
paramount to success in Iraq, then the Iraqi Police Service 
that ensures law and order and has the respect and trust of the 
local communities is absolutely essential. A community that 
relies on the IPS for safety is a community that will not turn 
to militias.
    It seems to me, as the strategic framework for prioritizing 
our police training effort, the police transition teams are an 
essential piece of the effort to execute this strategy. I am 
looking forward to hearing from our witnesses on this.
    Some of the issues I would like for the witnesses to touch 
on will be:
    First, the competency of the police stations your PTT 
worked with, and the extent the Ministry of Interior involved 
itself in the work of these police stations;
    Second, whether the IPS you worked with was able to carry 
out nominal law-and-order police work or they were forced to 
support counterinsurgency operations;
    Three, the extent of militia infiltration in the police 
stations you oversaw; and
    Four, how the chain of command supported your efforts.
    Once again, thank you all for joining us. We are looking 
forward to your testimony.
    And thank you, Mr. Chairman.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 49.]
    Mr. Meehan. Thank you very much, Mr. Akin.
    Colonel Swengros and Colonel Coates, if you could proceed 
with your opening statements.

 STATEMENT OF COL. RICHARD W. SWENGROS, ASSISTANT COMMANDANT, 
  U.S. ARMY MILITARY POLICE SCHOOL, U.S. ARMY; COL. ROBERT J. 
       COATES, ASSISTANT CHIEF OF STAFF FOR TRAINING AND 
EXPERIMENTATION GROUP, FIRST MARINE EXPEDITIONARY, U.S. MARINE 
  CORPS; AND LT. COL. ROBERT E. MCCARTHY, EXECUTIVE OFFICER, 
                     FIFTH MARINE REGIMENT

             STATEMENT OF COL. RICHARD W. SWENGROS

    Colonel Swengros. Yes, sir. Thank you Chairman Meehan 
Congressman Akin, distinguished members of the committee. It is 
my pleasure to appear before this committee today and give my 
testimony on the police transition teams and the work of our 
soldiers in Iraq and at the U.S. Army Military Police School as 
we support their transition team efforts.
    Mr. Chairman, I believe you have my opening statement, and 
if I could, I will go ahead and summarize to allow more time.
    I have been in the Army nearly 31 years, all in the 
military police. I started out as a private. As I attained the 
rank of staff sergeant I went to OCS, commissioned as a second 
lieutenant. I have had every military police type of duty the 
Army offers, in corrections, detention operations, military 
police companies and our Criminal Investigation Command.
    I do keep in contact with the senior military police 
leaders that are in Iraq today, and in Afghanistan, as we move 
forward to develop and enhance the transition team efforts from 
our bases here in the United States.
    In my experiences in Kosovo and now in Iraq I observed that 
building police capabilities in a Third World nation that is 
encumbered by fallen regimes and police that were part of the 
oppressive societies is absolutely the most complex thing I 
have ever done in my life. I have done it twice in my first 
rotation in Kosovo and then in a third rotation Iraq.
    My first day after the transition of authority as brigade 
commander, I went to a squadron on the west side of Tigris 
River in Baghdad and said, I am the new brigade commander. What 
can I do to help you in your mission? At that point, it wasn't 
a transition team; it was a program, it was military police 
squads operating in the police stations. And the squad leader, 
without missing a beat, said, You have got to fix the 
headquarters.
    You can't just fix the police stations. It has got to be a 
top-down--from the top all the way down to the bottom approach 
to how we fix the problems.
    So I took that in. The next day, I am out on the east side 
of the Tigris, found a platoon leader out there, asked the same 
question. These are different units, different commanders, 
different brigades they are working for, and this lieutenant 
almost verbatim said the same thing. She said, You have to fix 
the hierarchy. You have to fix the structures at the same time 
you are fixing the police stations because what is happening, 
as we develop the police station capability, there are 
transfers, there are pay problems, there are a whole number of 
things that pull away from what the police stations are trying 
to do.
    So I went back to my staff, and we sat down and we 
basically figured out, in order to do this, we had to partner 
with more than just our squads; we had to partner with our 
brigade battalion staffs. And we formed in early 2005 with 
General Chiarelli and Brigadier General Jones the Police 
Partnership Program. It was centered specifically at this point 
in Baghdad, and then by the time I left--in Iraq, when I first 
started, we had about 70 teams I could put out in my entire 
brigade, and now you are facing almost 230 police transition 
teams out there. Their number is still growing; about 85 
percent of the stations are being partnered with in one fashion 
or another as they go through and address the various problems 
and situations that are out in Iraq.
    As a result of our working with the current police 
transition teams over there, military police school was trying 
to level the playing field. When you go over there as a new 
unit it is more than just a transition from a right-seat ride 
to a left-seat ride. There is a transition process in learning, 
one month, two months, three months, whatever that dynamic is, 
to figure out what forms you have to fill out.
    So we develop a training support package and we now teach 
it as a five-day course. We teach, both residents and a 
military training team, we go out to the units and we will 
train them on Police Transition Team. And it is a package of 
slides and briefings that will allow units to train on what the 
PTT program is about, so when they get in country, all that 
learning aspect is diminished and they can concentrate really 
on who is operating in the area and how they can make 
effectiveness quickly at the same time that the enemy, if you 
will, operates to undermine or to take advantage of that scene 
that typically takes place when we transition units.
    Challenges continue to be the environment, the groups vying 
for population control; that is, organized crime, criminals, 
insurgents, terrorists, political or tribal parties. The number 
of PTTs, the number of interpreters with each PTT, all those 
get out the program.
    This part of the program is the best chance for success, 
but it will take time. It is an expensive effort under trying 
circumstances.
    There are a great majority of Iraqis and Iraqi police who 
are grateful for our efforts and are trying to effect change. 
And we saw that. We see it in their efforts. We see it in their 
eyes. Through my current job, again, I stay in contact. And it 
is the same feedback we are getting from folks who are 
returning. I think you will hear that today from the panel.
    I would like to thank this committee again for your time 
and interest in the Police Transition Team program, and I will 
be happy to answer any questions.
    Mr. Meehan. Thank you Colonel.
    [The prepared statement of Colonel Swengros can be found in 
the Appendix on page 52.]
    Mr. Meehan. Colonel Coates.

               STATEMENT OF COL. ROBERT J. COATES

    Colonel Coates. Sir, Chairman, Congressman Akin, 
distinguished members of the subcommittee, I am honored to 
appear before you this morning to discuss the Marine Corps 
advisory efforts in the Iraqi police development in Al Anbar 
Province. First, on behalf of all marines and sailors and their 
families, I want to thank you for your continued support off 
our Corps as we continue to fight on in the war on terror.
    In February 2006 the 1st Marine Expeditionary Force, or I 
MEF, created a separate staff section, the G-10, to oversee not 
only all Iraqi Security Force development in Al Anbar Province 
but the formal training of all U.S. Marine Corps and transition 
teams stemming from I MEF.
    As you are aware, we have transition teams assigned to the 
Iraqi Army, the Iraqi Police Service, and the Border Protection 
Service. Through the IPS, February 2006, approximately 2,143 
policemen were assigned to Anbar Province with an additional 
1,599 in training. However, many of these assigned policemen 
were not actively working.
    There are 10 police districts identified in Al Anbar 
Province, but only four of these police districts were 
operating at that time, with a total of 14 police stations.
    Two of these districts in many of the stations were barely 
functioning. The provincial headquarters was not operational. 
The only truly functioning police force is the City of 
Fallujah.
    The Iraqi Police initiative in Al Anbar to date provides 
the Coalition the most direct method of Sunni engagement for 
the populace. Iraqi Police are nationally controlled by the 
Iraqi Ministry of Interior, the MOI, and are organized along 
military lines with regard to rank structures, and 
distinguished between sworn officers and policemen. I might 
add, officers are the ones that have the real authority, the 
arrest authority and such, and the policemen are more like an 
enlisted rank structure.
    The Principal Director of the Police, or the PDoP, is 
appointed for each province and works directly for the governor 
of the Province, while adhering to ministerial policies and 
regulations. The chief of police appointed in each district is 
responsible for the management of all stations within the 
district.
    Iraqi Police recruiting in Al Anbar faced many challenges 
during most of 2006. Al Qaeda was conducting a ruthless murder 
and intimidation campaign against the then-fledgling Iraqi 
Police, causing much of the local populace to adopt a wait-and-
see attitude with regard to Iraqi Police, this wait-and-see 
attitude exacerbated by tribal affiliations where prospective 
recruits must obtain permission from the Sheiks to join the 
Iraqi Police.
    The recruiting process heavily taxed Coalition Forces to 
provide adequate security, as recruiting locations made 
attractive targets for the insurgents. Of course this created 
great pause in the minds of potential recruits. Many of those 
individuals brave enough to enter recruiting stations were 
rejected due to literacy or lack of proper identification. Once 
properly screened, the recruit must graduate from a preapproved 
police academy such as the Baghdad Police Force or the 
Jordanian International Police Training Center, JIPTC. Upon 
graduation, the MOI issues hiring orders for new policemen and 
assigns them to a home province. Policemen who formerly served 
in the IP could also rejoin the service by attending a three-
week transition integration program refresher course.
    From February 2006 to February 2007, all equipment issued 
to the IP was from Coalition Forces. During that first half of 
2006, Iraqi Police lacked basic equipment, to include vehicles, 
weapons, body armor, radios and communications infrastructure. 
This impacted operations throughout the year. Logistics support 
was also an issue. An example of this was a lack of fuel for 
the Iraqi Police vehicles. There is no MOI funding for Iraqi 
fuel nor is there any infrastructure to hold and distribute 
fuel.
    Problems associated with Iraqi equipment was eventually 
overcome when large shipments of gear were delivered to the 
Iraqi Police in Al Anbar in the last half of 2006.
    Iraqi Police in Al Anbar Province lacked ministerial 
support from central government and was unfailingly prioritized 
last, as with all other major government programs. Local 
government tribal support, however, provided the impetus to 
expand the Iraqi Police in the province, allowing it to grow to 
its current size.
    Perhaps the greatest factor in sustaining Iraqi Police is 
pay. When I MEF arrived in Al Anbar Province, police hadn't 
been paid in four months. The PDoP was arrested for stealing 
Iraqi Police (IP) salaries. Baghdad Treasury withheld all 
police funds from Al Anbar. Extensive Coalition involvement was 
required to restart the pay process because the Baghdad 
Treasury did not trust provincial police officials to do so. 
Restarting the pay process was essential to recruiting Iraqi 
Police.
    Iraqi Police Service was not designed similarly to fight an 
insurgency but is an essential element to fighting the 
insurgency. This required Coalition and Iraqi Army Forces to 
set conditions that would allow the Iraqi Police to conduct 
day-to-day operations. Coalition and Iraqi units also provided 
quick reaction forces for the Iraqi Police in emergency 
situations. Today there are many locations throughout al Anbar 
where our Iraqi Police have established security to a level for 
allowing schools and shops to open for the first time in years.
    There are no existing criminal courts or judges in Al Anbar 
Province. This has created obvious problems for the police as 
there is no established system of justice outside the Central 
Criminal Court of Iraq. The CCCI's focus was on the prosecution 
of insurgents, which neglected the prosecution of common 
criminals. This greatly hampered police operations.
    There are no existing prisons in Al Anbar Province. Police 
could turn the insurgents over to the Coalition for detention, 
and the regional detention facility only possessed small jails 
within the police stations to hold common criminals. These were 
almost always, always, always overcrowded.
    Construction of Iraqi Police facilities was problematic. 
Threats and attacks against contractors slowed or halted many 
of these projects. In addition, proof of land ownership further 
delayed many projects as titles and deeds to most land did not 
exist, making this requirement nearly impossible to satisfy.
    Al Anbar Iraqi Police are mentored by both U.S. Army and 
Marine Police Transition Teams or PTTs. Many of these teams 
proved to be difficult initially, and a U.S. Army Military 
Police (MP) battalion was originally tasked to source these 
teams but was diverted to Baghdad, leaving only a company in 
place to provide PTTs. I MEF created 15 additional PTTs from 
personnel from staff positions and line units to fill the gap.
    During the initial stages of the PTT program PTTs received 
local generalized adviser training. As the PTT program 
developed, incoming advisors began to receive more specialized 
PTT-centric instruction at Camp Fallujah, followed by more 
detailed on site the ten-day training with outgoing PTTs. Today 
I MEF maintains a dedicated Advisory Training Group board at 
Camp Pendleton to train and prepare all transition teams as 
well as issuing a PTT handbook.
    And, sir, I brought an example of that handbook for your 
staff. And it has been distributed and in no way, sir, is the 
``dummies'' portion in there warranted at any anybody----
    Mr. Meehan. It is not just for the Congress, anyone that 
gets the book----
    Colonel Coates. Absolutely not, sir. Upon I MEF's transfer 
of authority to II MEF on 9 February 2007, Al Anbar had 
approximately 10,250 assigned IP. And that is school-qualified 
IP, sir, formally trained, with approximately 9,211 walking the 
beat. Provincial headquarters in all ten districts were 
operational with a total of 40 active police stations. The IP 
are being paid on time each month, and also receive additional 
funds for operations and maintenance. The IP are invaluable not 
only for the security they provide, but also for the ground 
level intelligence on local insurgent activities.
    During December 2006 to February 2007, four graduating 
police academies, each ranging in size from 550 to 1,300, 
reported to more than 40 police locations throughout Al Anbar, 
equipped with complete equipment kits and vehicles, as well as 
on good pay status.
    The Iraqi Police officer has been the subject of much 
violence in Al Anbar. Often one to two police officers are 
killed daily or murdered on a daily basis. That is an indicator 
of what their impact has been upon the al Qaeda insurgency. No 
question in recent months the IP is taking the fight to the 
insurgency in Al Anbar Province.
    Additionally, in February of 2007, I MEF installed a 
commercial satellite Internet system covering all police 
stations in Al Anbar, providing first-ever coverage to the 
Province, resulting in a capability to coordinate and share 
information.
    Iraqi Police Service in Al Anbar Province has proven to be 
a good news story. Much of the recent decline in violence there 
can be directly attributed to their increased presence in the 
Province as well as a form of Sunni engagement by both 
Coalition Forces and the government in Iraq. I can provide you 
today with many examples of bravery on the battlefield that I 
know of firsthand.
    Again, I would like to thank you for this opportunity to 
appear before you, and I look forward to answering any 
questions you may have as well as providing any additional 
information that you require.
    Mr. Meehan. Thank you very much Colonel.
    [The prepared statement of Colonel Coates can be found in 
the Appendix on page 57.]
    Mr. Meehan. Colonel Swengros and Coates, you have been 
involved in the evolution of the PTT program from an informal 
approach to a more formal approach. Can you describe for the 
subcommittee how the program has evolved and what progress you 
have seen in the IPS and how that has evolved?
    Colonel Swengros. Yes, sir. Mr. Chairman, as I said, when 
we got over there what I saw was a lot of policing effort but 
it wasn't synchronized and it wasn't addressing it from the top 
to bottom. So from the very start, we had efforts out there to 
train stations that I would classify as very desychronized; 
everybody doing the right thing, but it wasn't connected. So we 
really concentrated on that.
    And I took my brigade staff and my logistics officer and 
non-commissioned officer (NCO) and they went out and built the 
capability in the Baghdad Maintenance Facility. And that 
included calling back to Chrysler and Chevrolet and getting 
parts lists for vehicles that were sent over by contributing 
nations but didn't come with the right parts sets to repair the 
damages from the insurgency. First day in we had--ball peen 
hammers was all they had. And that is the complexity I was 
talking about. So that is the logistics side.
    I can talk about the accountability system, the weapons, 
when we got there. I think our mission in 2004 was really--late 
2004, we had lost the police stations in Mosul, we had lost 
police stations in a lot of areas. And so our initial focus 
entering 2005 was the January 2005 elections and getting the 
police to really be able to defend themselves.
    I think today you will see that most police stations can 
and do defend themselves from attack by the insurgents, and 
that was not happening at the onset. It took our intelligence 
folks. And they helped develop a criminal intelligence. When 
the police were disbanded, all their expertise went away. Most 
of your police leadership in Iraq is Army. And, in fact, the 
year I was there, the only former policeman that was a Province 
police chief was the Baghdad police chief, General Asad. 
Everybody else was Army.
    So it was the leadership management piece of it, but in 
terms of policing, it wasn't there. And that was the same 
basically as you go through the stations. It was very difficult 
to find some seasoned police folks, because they were run out 
of the country and they were able to stabilize that a little 
bit.
    We brought our operations folks and set up command centers 
to try to get at the same thing that he talked about in Al 
Anbar that we were doing about a year and a half earlier: 
communications across Baghdad where they could actually track 
where people were, somewhat of a 9/11 system, the tips lines.
    The Iraqis are calling the Iraqi Police now and not the 
Coalition tip line to provide information on insurgent or 
criminal activity in an area.
    Our personnel section in brigade and battalions would go 
out and work the personnel and pay issues. From my perspective, 
and I have worked with the Deputy Minister of Interior for 
Police Affairs in my year there, trying to work that piece of 
it. But as you can tell, we are starting to get spread between 
brigades trying to work Mosul and trying to work Baghdad, being 
those are our two top priorities, and then trying to work with 
the Deputy Minister of Interior for Police Affairs.
    But we worked on the pay system and the fuel system and 
what we saw was when the government transitioned later on that 
year in 2005, a lot of the folks that we had been working with 
then were removed or replaced by other party members. And we 
had to basically start, not really from over, but we had to 
start pretty close to ground zero again, getting through all 
the pay problems, the badging problems, the weapons problems.
    A lot of people will talk about the partnership program and 
ask how it works, and I think the clearest example is: I went 
into Baghdad, I had a lot of questions coming from me, from the 
Multi-National Corps Iraq (MNC-I). We operated under 18 
Airborne Corps, saying okay, show me this logistics 
accountability system. So I said, okay, you give me a 
security--a serial number of AK-47 that you issued to me, and I 
will use the Iraqis to track it down and tell you where it is. 
And we were able to track down in 2005--if we issued a weapon 
we could track it down to a certain station.
    What we found is as we were going through and tracking 
computers and weapons and vehicles, there are a lot of folks 
would get those, and, because of that distrust, they would not 
issue them out to stations that they didn't trust. So they were 
kept in the Iraqi Police warehouses. So we had to go down there 
and stoke the fire over that system. And that is, again, in a 
nutshell, some of the complexity.
    But all of it was a success because it was all working in 
various stages. I think the issue is that we really have to 
keep at it for a lot of different reasons. We have to keep at 
that program. But the Iraqis are capable of doing it.
    Mr. Meehan. Colonel, do you have anything to add to that?
    Colonel Coates. In regards to the transition teams, Mr. 
Chairman, you know at first it was very informal. We had a 
formalized period of instruction, but I will tell you, you can 
be very proud of the marines, the soldiers, and the sailors 
assigned to those teams. And Lieutenant Colonel McCarthy can 
speak firsthand.
    Our goal was to set conditions that would allow the police 
to thrive and grow which obviously gets initial security 
established. And that was a challenge. But in parts of Al Anbar 
which have very unique challenges, what you will find today is 
not uncommon--and we didn't have this when we first got there--
to have an Iraqi Police section accompany an Iraqi Army unit 
and a Coalition unit and have a combined patrol through 
neighborhoods. And that was what was really a key success, 
because there was much mistrust between the Iraqi Army and the 
IPS initially. And each considered each other terrorists.
    So the vehicle with which we brought about that trust or 
bringing that coordination together was the PTT team and the 
associations that the PTT team could have with a partnered 
unit, and bringing that joint coordination together, which 
resulted in better intelligence to where the police went on 
patrols with the military and they could point the street-level 
bad guys out immediately and tell them what is right, what is 
left, and so on so forth.
    So that was, you know, the real vehicle of getting that 
done was the in emplacement of those PTT teams. And also those 
PTT teams gave us true visibility of what was going on at the 
lowest levels and then bringing it up.
    For the ministerial thing, we had no functioning provincial 
police headquarters. Our first step of trying to get that 
provincial police established or establishing the provincial 
police so we could get that ministerial engagement I will tell 
you, sir, it is very broken at that level. You know, they 
consider the Government of Baghdad as the other side of the 
world. They do not get much in the way of day-to-day support. 
We are getting salaries. But the establishment of our 
provincial headquarters and engaging ministerial level is 
absolutely key to sustaining the future.
    Mr. Meehan. Lieutenant Colonel McCarthy and Lieutenant 
Bridges, I wonder if you would introduce yourself and then tell 
us where you served. But I am interested in you describing for 
the subcommittee what a typical day for a PTT working with the 
IPS would be like.
    Colonel McCarthy. Good morning, Chairman. Lieutenant 
Colonel Bob McCarthy from the great Commonwealth of 
Massachusetts. I was in Al Habbaniya.
    Mr. Meehan. Do you know how many Bob McCarthys I know in 
Massachusetts?
    Colonel McCarthy. Probably 110, sir.
    But Colonel Coates threw me into Al Habbaniya that needed 
some adult leadership. There were two squads, military police 
squads, that were working with a very corrupt lieutenant 
colonel in the Iraqi Police Service. And it was a function of 
leadership dealing with those folks. Unannounced calls, zero 5 
to zero 7 to check posts. Basic leadership supervisory role. 
Are you manning your towers? Are you manning your Entry Control 
Points (ECPs)? Are you dressed professionally? Are you wearing 
your uniform properly? Are you carrying your weapon properly to 
make things safe? You would have negligent discharges all over 
the place and it was unsafe for the soldiers and the marines. 
We fixed that immediately.
    We would screen and vet their rosters over and over and 
over again, because you had ghost policemen on the rosters. I 
mean, the administrative burden for the soldiers and marines 
was gigantic. But you know, basically the task, man training 
and equipment, lead, teach, and mentor 24 hours a day. The 
Military Police Force, they never left the station. They waited 
for a call.
    In a counterinsurgency environment, they have to be on the 
streets because they are there to provide the basic security 
for the locals.
    We taught them to do dismounted combat patrols. Let's walk 
outside your station. Show them how to walk the beat.
    We stand off. They walk in front and get them comfortable 
showing the blue, showing the police uniform on the streets. 
And the people started to recognize their efforts and started 
to actually bring information regarding criminal activity and 
insurgent activity to the stations.
    Mr. Meehan. Can I ask, how did the international police 
officers, contractors, how do they fit into this equation?
    Colonel McCarthy. The way we broke it down into functional 
areas we trained the leadership, you know, to operate along 
functional lines as a staff and do their admin, do their 
logistics, do their intelligence, their communications. We 
taught them basic police and soldierly skills and virtues. And 
that's where the police officers came in, you know; our 
International Police Liaison Officers (IPLOs), they would teach 
investigations, the conduct of investigation, over and over and 
over again. Sensitive site exploitation, how to gather and 
maintain a chain of custody on evidence.
    And staying on top of that--I mean, we taught the 
investigative process every day for six months.
    Because if I said Chairman Meehan was a bad man, and 
Colonel Coates said Chairman Meehan was a bad man, the report 
would be that you are a very bad man because we have two 
statements that you are a bad man.
    Mr. Meehan. Sounds like my local newspaper.
    Colonel McCarthy. But they did great, great work, with just 
how to set up a dispatch center; because if they launched a 
patrol, they had no battle-tracking capability. It was God 
willing. Insha'allah.
    You just launched a patrol, and into a very bad 
neighborhood; what is the plan, who is the quick reaction 
force? Now, when are they checking in, how are you tracking 
this on a map? How are you, you know, registering this for your 
historical records? They didn't track that. So we taught them 
all those things.
    Mr. Meehan. Lieutenant Bridges.
    Lieutenant Bridges. Good morning.
    Mr. Meehan. Basically the question is describe, if you 
would, a typical day for the PTT working with the IPS and what 
it would be like.
    Lieutenant Bridges. Good morning, Chairman Meehan Mr. Akin 
and distinguished panel. Thank you all for allowing me to be 
here. I am Lieutenant Bridges, and I was a Helicopter Aircraft 
Commander (HAC) commander in the 322nd.
    A typical morning for us was getting my team up 04, 
convoying out of the gate, getting to the IP station, to find 
no one there. Meaning, sir, everyone was fast asleep.
    So our job was to try and discipline the IPs at our 
subprovincial headquarters. We had a lot of discipline issues. 
So we couldn't even talk about infrastructure or classroom 
training until we finally got them to a place of discipline.
    Once we got them to put on their uniform, sir, we started 
classroom instruction. We started to try and teach them things, 
just as Colonel McCarthy just noted, just basic policing, basic 
reporting.
    The reporting system within the station, we managed over 
5,000 IPs for nine districts, and the reporting system was: Who 
is at work today? So all of the officers--I had nine officers, 
06s, there in their Iraqi chain, they would come to me and say 
we have 10 people here, we have 20 people here.
    And actually sir, they wouldn't have those people there. 
Typical.
    Let's talk about the afternoon. We would go into the 
operation section. Our job was to try and make sure that these 
Iraqis knew how to read the maps. We would bring maps for them 
that were made for us at the division level, but they did not 
know how to read their own maps. So that was a big issue for 
us, getting them to know where their patrols and IPs were being 
dispatched so that they could track them. So we had a lot of 
issues there.
    Well into the evening our IPs would leave at two o'clock. 
So we had a hard time trying to get them to learn how to stay 
at the station, do overnight operations. We had a lot of issues 
in the patrol issues, sir.
    Mr. Meehan. Lieutenant, do you know whether the IPs that 
were present were trained by the Coalition? Were they 
Coalition-trained?
    Lieutenant Bridges. Are you speaking of the formal 
training?
    Mr. Meehan. Yes.
    Lieutenant Bridges. All of my IPs, sir, had been to the 
Jordan Academy or the Baghdad Academy. There were some who had 
not received training because they had been IPs for maybe 20 
years, so they did receive refresher training from those 
academies.
    Mr. Meehan. One of the thing the members of the committee--
we took a recent trip to Iraq and we toured the JIPTC in 
Jordan, and it was stunning to me and the other members of our 
delegation. The fact that they couldn't tell us whatever 
happened to those people who graduated from what appeared to me 
to be a pretty high-quality police training facility.
    Before I was elected to Congress I ran a very large 
district attorney's office. And the police training operation 
itself, we were very impressed with it. But the notion of not 
knowing who you are training, whether they show up for work, 
how long they stay, whether they move up in the ranks, or 
whether they were, you know, Iraqi Police officers or al Qaeda, 
was very concerning, I think, to all of us, keeping track of 
who we are training and where they end up.
    Lieutenant Bridges. Yes, sir. That process is very 
frustrating for us. I have worked alongside the 463rd MP 
commander and we would see the recruiting process, sir, from 
start to end. And I can tell you if we sent over 80 IPs to 
Jordan or Baghdad Academy, we could not account but, I will 
say, for maybe 50 percent of those IPs at the end of the 8-week 
training, and we just could not get a pulse on what activity 
was happening at the school that allowed us not to, you know, 
battle-track these IPs.
    We vetted them, sir. We would go to the recruitment center 
and ensure that these civilians would go through the process, 
take the test, the doctor say they are good to go, they cough. 
They are good, sir. We wait for them to go to training, we 
can't find them at the end of the course. Maybe like I said, we 
send 80, we can only account for 40, and I don't even want to 
impress upon you the badging process, sir.
    Mr. Meehan. I am interested if anybody else had comments on 
this when you think--I think it was mentioned, there were 
50,000 Iraqi Police that had been trained; the cost to the 
United States was significant. And again, an impressive 
facility, but not having any idea whether we were training 
insurgents, al Qaeda, or people that really want to be Iraqi 
security. And the only way we could identify them, many would 
come in and give names and no way really to identify them until 
we got their identification. Then there were instances, if they 
came back for training, and you would know, you have already 
been here for training once. But I would like to hear from all 
the panelists on this.
    Colonel Swengros. Mr. Chairman, we also had responsibility 
for the Baghdad Police College when I first got there. When I 
first got there it was eight weeks and now it is ten weeks. 
But, as Colonel Coates was saying, you start looking at 
training and you start looking at what the curriculum is. It is 
good training but the first couple of weeks are human rights-
type training, little to do with police work. And we spend a 
couple weeks on training them how to survive, a lot of time on 
the ranges and stuff like that, and when you get down to 
policing, out of the ten weeks, you may get four weeks out of 
it.
    I did try to address the same problem we had in 2005. You 
send folks to the Academy and they would be expected to go back 
to a certain location, because that is where they recruited 
from. But the Iraqi Minister of Interior had a different way of 
doing business. They would make the assignments. When we were 
making the assignments we could track it; and we knew, we had 
accountability systems. When they track things they do things 
by paper, and it is handwritten, and a lot of things get lost. 
But they will make decisions. And it will be decisions that we 
may not agree with, but that was their decision.
    The other dynamic of it is that they did have to fill 
certain provinces. Ninevah Province at one point had 40 percent 
at some stations. And then you go out to other provinces and 
they would only have 60 percent. So I said, okay, let's try to 
fill up this other province. You go to fill them up and say 
here is your assignment instructions; and it is like a New York 
State trooper, you graduate, you may not go back to Buffalo, 
you may go to the New York City area. They wouldn't go. There 
is no way I am going to go to work in Mosul if I live in 
Baghdad. I won't survive back there, and plus I am not driving 
back and forth to take care of my family. So there is a 
tremendous dynamic there that we don't have to deal with.
    All those pieces lead to exactly what Lieutenant Bridges 
said. It is extremely difficult to track them. They do not have 
a National ID card, as many times as they have tried to do 
that. There are many, many common names out there. And to us a 
lot of them really do cause us difficulties in distinguishing 
who is who.
    That dynamic in and of itself makes it extremely difficult, 
the entire process.
    Colonel Coates. Sir, Mr. Chairman, and, again Al Anbar got 
kind of a later start, but in the recruiting process nobody was 
admitted into it unless they had the proper ID card or papers. 
We vetted and we conducted biometric identification of 
everybody in that process, and, because Al Anbar is unique, 
most of them would only join if they could go to their home 
areas or hometowns. That was one of the conditions. That was 
the appeal of the police force, that they could stay at home 
rather than be nationally assigned.
    The other thing was that they preferred to go to the JIPTC 
Academy and they found it to be very professional, but because 
they were in the Sunni Province, Jordan was a very appealing 
place to go.
    When they returned, we had handlers assigned. We picked 
them up at Baghdad or Al Asad. They were Coalition-escorted or 
-driven to their police districts, to police stations, and 
almost in all cases the PTT team was there to receive them, to 
make sure they were processed at the station. So we also 
maintained our own rostering and tracking of all those assigned 
because we tied it to the payroll process.
    If you do not have a graduation certificate with an 
identification of hiring order, you weren't on that, we 
screened the pay rosters, your name was not added to that 
payroll.
    Mr. Meehan. Thank you, Colonel. Before I go to Mr. Akin, I 
don't want to leave out Lieutenant Colonel Felling. And welcome 
back from Iraq.
    I understand that you were on a military transition team 
rather than a Police Transition Team but worked directly with 
the Iraqi IPS. Can you describe your experiences with the IPS?
    Colonel Felling. Yes, sir, good morning. My name is 
Lieutenant Colonel Brad Felling, and it is a pleasure to be 
here, Mr. Chairman. Having just come back last Wednesday, I was 
intimately familiar with the military transition team 
operations in the Ninawa and the MND Center-South Province.
    Being the Air Force gentleman on the military transition 
team staff, my primary role was air support, but there is a 
very fine line in this Coalition area between PTTs and MTTs. A 
lot of the MTT functions are served with the PTTs as well. It 
is almost a graduation, if you will, from PTT up to the MTT 
areas and the military transition teams are doing fantastic 
work.
    My responsibility was to make sure that they had whatever 
they needed outside the wire; specifically to make sure that, 
one, they were protected; two, they felt comfortable; and to, 
three, make sure that they had any air support that they 
possibly needed, be it rotary wing or fixed wing.
    The primary effort there pre-plus-up was construction and 
then post-plus-up was to make sure that we could assimilate out 
into the local neighborhood, and that is where the PTT and MTT 
members were essential, because they were part of the local 
neighborhoods.
    Mothers, fathers, daughters, sons, you name it, we went out 
there and we assimilated with them. And as an Air Force 
aviator, my job was to make sure that I could impart as much 
aviation expertise as I possibly could.
    Not being a security policeman, my job was to make sure 
that their security policemen were able to maintain their 
expertise along with whatever communications we could provide 
them. So, it was very, very meaningful work down there. And in 
a multinational environment in the Coalition sector, be it 
Polish, El Salvadoran, Mongolian, et cetera, and, specifically, 
the Mongolians with their security expertise, were extremely 
helpful to our effort down in Diwaniyah.
    Mr. Meehan. Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman. It is fascinating what I 
am hearing all of you describe is sort of building from the 
ground up on everything. Just starting out, you got to be awake 
and you got to be on the job, and it is absolutely amazing. And 
it sounds like progress, you know. Hearing from where we 
started and where we are moving, it seems like we made 
considerable progress. It is at least a picture of things 
moving forward.
    In Al Anbar, is the situation now, in the areas where we 
have pretty good cooperation with the local Sheiks and all, are 
the police stations and all--is that starting to work 
reasonably well, and are they locally supported and respected, 
Colonel Coates?
    Colonel Coates. Yes, sir. In Al Anbar what truly, you know, 
turned the situation with the police, again, was engagement 
with the Sheiks and the local tribal officials. And I think 
probably, you know, they saw that they could help shape their 
future by cooperating and so on. It has been a big turnaround, 
particularly in Ramadi, sir, and in the area where Lieutenant 
Colonel McCarthy was, in Habbaniya and in Chaldea, where 
foreign fighters and bad guys walked the streets during the 
day.
    And what changed the complex of that place was, again, the 
integration of the police, our Iraqi Army units with Coalition 
in overwatch or in Reserve for them and a clearing operation 
took place where an Iraqi Army unit would go in, establish 
initial security, it would be backfilled by police, and we 
would drive on to the next street.
    But there was no question that the recent events in Al 
Anbar have been through the tribal and Sheik engagement. That 
is what has brought the numbers to join and the quality people 
as well.
    Again, I think they were very much on a wait-and-see type 
posture. See how things were going to go. Maybe guys were 
sitting on the fence deciding what side they were going to 
take, but no question, recent tribal engagement with the Sheiks 
is what brought the numbers to come join.
    Mr. Akin. So you are talking about Ramadi which has been 
the biggest success story because the Sheiks are on board; is 
that correct?
    Colonel Coates. Absolutely, sir.
    Mr. Akin. My son was in Fallujah first half of 2005, and I 
don't think there was any real cooperation from the Sheiks at 
that point is what I recall.
    Colonel Coates. That is correct, sir.
    Mr. Akin. So in the places where the Sheiks are working 
with us, do we now have local police? Are they functioning 
reasonably well, would you say?
    Colonel Coates. Absolutely, sir. And what is happening is 
the numbers have shown up and security has been established and 
a way of life, with children going to school, shops reopening, 
no question.
    Mr. Akin. Is that starting to carry over into some of the 
other areas of Al Anbar? Are they still full of bad guys and 
completely resistant?
    Colonel Coates. Al Qaeda, where it was heavy fighting in 
2004, sir, there is probably not much reason to have Coalition 
Forces there now. We have a Iraqi battalion brigade headquarted 
out there. But the police forces run the show completely. Very 
little or no violence at all. Ramadi is a turning point, as we 
are squeezing on the Euphrates River. The foreign fighters or 
the insurgents are moving toward the center, to the Haditha 
triangle, but as we left we had numbers joining from Haditha 
and those areas, come to join the police forces.
    The challenge in those areas was that MOI had established 
limits on the number and the size of the police forces in that 
area based on paid salaries and structure. And often now these 
police forces wanted to exceed their authorized strengths, and 
trying to explain to them you are only going to have a set 
number of salaries to achieve those numbers; we have to get MOI 
to fund a higher authorization.
    Mr. Akin. How about Fallujah? Is that more under control 
now or is that still dicey?
    Colonel Coates. Sir, I think it has probably backslided a 
bit. Initially we had a very strong chief of police in there, 
as you know, in 2004. When we took Fallujah in November, the 
Iraqi Government put police in there. We had a joined--we had a 
very strong police chief in there with a deputy. The deputy was 
killed. The chief of police was promoted, went to Baghdad, and 
probably the personalities and strength of the leadership in 
Fallujah probably let the police force itself backslide.
    However, when I left, they got a very strong chief of 
police back in there. But I think Fallujah, sir, is probably 
backsliding in my opinion.
    Mr. Akin. Would you like to add anything else, Lieutenant 
Colonel?
    Colonel McCarthy. Yes, sir. When I got to Habbaniya there 
were 400 Iraqi Police and probably half of those were school-
trained. From November until January 1, we shipped 400 police 
to the Jordanian Police Academy. And when I left in April, 
there were 800 Iraqi Police on the rolls, all supported by the 
Sheiks.
    As I left, the day before I left, a couple of head Sheiks 
from our western sector came in and said, Can you make more 
police? Now, I had already been authorized to break our ceiling 
twice, and I was told to cease and desist on the recruiting, 
but with more successes I believe they can get more police in 
that region.
    Now, when I got there, no one would work with the police. 
They had Army units and police units sitting next to each 
other. The Sunni kids from the local neighborhood and the Shia 
kids stationed there, they got along to get along but that is 
about it.
    After a few months of engaging the Army and the police at 
the same time, having security and planning meetings, we 
started off with the Army teaching that--you know, giving them 
some marksmanship courses. Started going into civil military 
engagements by, you know, running the medical engagements out 
in town with police, you know, cordoned Army setting in. You 
know, the Iraqi Army running the CMV with some Coalition 
support but all with an Iraqi face.
    Then we started to plan combined interagency traffic 
control points, entry control points. They started to work that 
way. Then they started to go out on joint combined patrols, 
combined combat patrols to get security presence out in the bad 
towns.
    Now, one night this old guy went along and brought two 
policemen. The Army planned the patrol and this is a bad 
neighborhood. The two police sergeants I brought, they said 
yeah, the places you want to go cordon off, and don't do that. 
Let's go here, here, and here. There are bad guys here. And on 
the course we chased a couple diggers down the road who were 
trying to emplace an IED. The soldiers lined these people up 
against the wall, and the police said you need to talk to him, 
you need to talk to him, you need to talk to him.
    After that, the other battalions, the Iraqi Bronze started 
requesting police to come on patrols with them. We were pushing 
patrols out with the Coalition Force and the Battalion Task 
Force to the West. We were pushing out Iraqi patrols and Iraqi 
Police patrols with the Army to our south. So by the time I had 
left, we had the marines, the soldiers, the IPLOs, doing God's 
work out there. The IPs had worked with three Iraqi battalions, 
the Iraqi brigade, three rifle companies from the Marine Corps 
and the Army National Guard battalion south of us. That is 
partnership. That is cooperation, that is engagement.
    And the Iraqi Army wants to work with the Iraqi Police big 
time, because propping them up for success is their exit 
strategy, too, so they can push out further to the border, to 
the hinterlands, and the police can provide the security.
    Now as come, you know, right around March, we under cover 
of Camp Habbiniyah, and the, you know, the two camps around 
Camp Habbiniyah with just police providing security, the Army 
had been able to extend themselves throughout that district 
with the police just providing security on the outer boundaries 
of the camp which was a gigantic leap forward.
    Mr. Akin. So I think what I am hearing you say, and I will 
conclude with this, Mr. Chairman, I don't want to take too much 
time, I think what I am hearing you say the approach you were 
using in Al Anbar in terms of partnershipping with all of 
your--putting all of your resources together in building a 
sense of cooperation and teamwork, that sounds an awful lot 
like what we are trying to do in Baghdad with the surge and 
everything. It is the same basic kind of strategy of pulling 
all of the resources together which then reduces the sectarian 
kind of problems. It gets you the information that you need and 
the training all across the board so that people can't--would 
you say that is probably correct?
    Colonel McCarthy. That is exactly correct, sir, and the 
thing is it is working in my little slice of heaven, and the 
Iraqi Security Forces are winning this fight. And with 
patience, I mean, when I got there in September and if I had 
told you all that stuff was going to happen, you would have 
laughed me out of the room. I would have laughed myself out of 
the room. But you have to be patient. It took 6 months for them 
to arrest one insurgent. But then they were arresting 50 at a 
time. So it works with patience.
    Mr. Akin. Thank you. Thank you, Mr. Chairman.
    Mr. Meehan. Thank you.
    Dr. Snyder.
    Dr. Snyder. I ended up with several questions, and I will 
try to ask my questions quickly, and if you all can err on the 
side of brevity then we can get to Mr. Jones and Ms. Davis.
    When the concept of the war in Iraq first came about, one 
of the things that was said was that the Iraqi people were 
reasonably well educated and had a sense of wanting to fully 
participate in the modern world and they should do well. My 
information received from one of my constituents who spent a 
year in Iraq, he is a police chief in Arkansas, training 
Iraqis, was there. He was really surprised with the low 
literacy rate, the number of people that can't read or write in 
Arabic, and that it was a real challenge.
    Is that your experience?
    Colonel Swengros. Yes, sir.
    My experience and it still is now is they have heart. They 
will go up there and they will do everything they can to defend 
their country but--and the large part, especially as you start 
talking about getting them from certain tribal areas and such 
when you get outside of Baghdad.
    Dr. Snyder. This was in the Basra area. But that it made it 
very difficult when you start pulling out police manuals or 
training manuals and it all had to be verbal. He said maybe 
about a fourth grade education, which fourth grade reading 
isn't bad, but is that your experience also, Colonel Coates?
    Colonel Coates. In Al Anbar.
    Once you get west of Fallujah, it is a very farm-based 
community in which education competes with the requirement to 
farm. So a lot of people wanted to join but didn't have the 
reading and writing, and that was the same for the Army.
    Dr. Snyder. So those folks would not make it.
    Colonel Coates. And we tried to engage the government of 
Iraq, and they were pretty hard over. They weren't going to 
change those requirements. It hurt not only the police 
recruiting but also the military recruitment. The easy part you 
had to have 22 teeth. They could satisfy that. But the 
reading--we opened a kind of a prep school for reading, and we 
had kind of a pre-recruiting class, and we would teach them to 
read capacity exam.
    Dr. Snyder. Reading in Arabic.
    Colonel Coates. Most of the test was in reading. They 
didn't have to write. But in Al Anbar, as the region as a 
whole, the education system really falls off as you get deeper 
into the farmlands.
    Dr. Snyder. One of the other concerns that my constituent 
had was the frustration he experienced that every month he 
thought it was about a 75- to 80-page report that he had to do, 
and he thought if he could spend more time training and less 
time filling out these pages every month, that the whole 
country would have been better off, and he uses a specific 
example. He had to do a monthly report on the inventory of the 
furniture. Now the furniture was adequate. It wasn't fancy. But 
it was adequate. But he said the furniture didn't change, and 
yet every month he had to fill out this new form.
    Is that, Lieutenant Bridges, or any of you, is that still 
your experience?
    Colonel McCarthy. The police station monthly report, it is 
a big beast, sir, but it is a check in the box. But it also 
helps focus your efforts on what you are going to work on that 
month. If----
    Dr. Snyder. One of your trainers said it did not help focus 
efforts. It took time away and didn't find the benefit of it. 
But a 
75-, 80-page monthly report.
    Colonel McCarthy. Assigning the responsibility to one 
person, making them the action officer on that one, they 
contract that, they can piece off the IPLOs, the, you know, our 
U.S. police officers would take a section, the logistics guys 
would take a section and you parcel it off along functional 
lines. It takes, you know, an hour and a half to fill out and 
you combine it all and you are done in three hours. It is not 
too bad.
    Dr. Snyder. So that is helpful information.
    Colonel McCarthy. Yes, sir.
    Dr. Snyder. Has the committee had that information made 
available? I mean, if you all find it helpful, perhaps we would 
find it helpful to get, you know, copies of one month of all of 
the reports filled out and then the composite over the last 
year of the following trends. Have we had that information 
available? We have it. And do we have--the 75, 80 pages of 
each?
    Yes. Okay.
    The issue, Colonel Coates, I wanted to ask you, as you have 
made progress in Al Anbar in your recruiting and working with 
the tribal leaders, what is the current status? I think you 
touched on this either in your written statement or orally, but 
what is the current status? Do you have concerns about--is the 
policing to enforce the laws or is the policing to do the will 
of the tribe?
    Colonel Coates. Yes, sir. And that has always been our 
concern. One thing we really insisted was a formal training of 
a police officer. I understand that he is going to be a 
representative of the government of Iraq and not a militia 
member.
    How they have done their tribal business in the past when 
they recruited for the army in the Saddam stage or recruited 
for the police, they went to the Sheikhs and the Sheikhs would 
provide the recruits. And it is pretty hard to break them of 
that way of doing business.
    But you know, clearly, you know, professionalization of the 
police forces or military forces is our number one goal, and we 
insisted they are going to go to formal education and training 
of a JIPTC or BTC, get back and then, you know, we try to 
accommodate, you know, where they recruited from, you know, 
placing them there in the town with the police. And so we paid 
very close attention. Again, our PIT teams were the vehicles to 
measure the metrics of what their police station was doing to--
and if the warning lights came on, you know, we would apply the 
pressure and make sure that we could shape it to the direction 
we wanted to, but militias was the last thing we wanted.
    Dr. Snyder. Lieutenant Bridges, would you describe for me, 
please, your experience as a woman MP both from the directions 
you receive from your superiors in our military force and what 
you were told to do or advised to do with regards to being a 
woman in Iraqi culture and then how that worked out in practice 
and what your thoughts are about that whole issue of being a 
woman officer serving in the capacity you did.
    Lieutenant Bridges. Yes, sir. I spoke on this a few days 
ago, but as I received the training at Fort Dix at the 
mobilization station, we were told that, in the classes, not to 
be too friendly or even overtly seen because the men in the 
country would not be receptive to us as women.
    So my instruction or my battalion commander's instruction 
was not really have me out there being forward but have me on 
the team. But what we found, sir, is the exact opposite--and it 
is really a means of trust or a matter of trust--was able to 
gain the respect of the police chief general at the central 
headquarters as well as the officers and NCOs that worked with 
them and being a minority woman they really felt like we had a 
lot in common. They knew a lot about our society so we just 
talked about things on just a--just on a common level, sir. 
Didn't have anything to do with the military. You know, asking 
me about my family. And once they really realized I was really 
a real person, someone just like them, it was easy to really 
work with them.
    So it was an easy choice, sir, and once we overcame--once I 
overcame the barrier of being a woman, I found that it had 
nothing to do with my gender but what I knew as a soldier and 
their belief in me and my belief in them.
    Dr. Snyder. Were the directions you received before going 
into this capacity, is that something you had to kind of 
ignore? I mean, should the directions you had been given been 
changed for women who are coming through going in that capacity 
tomorrow?
    Lieutenant Bridges. Sir, you can see that even if it wasn't 
spoken, you could see that the direction that the coalition 
forces was going, it was changing greatly.
    Dr. Snyder. Colonel Felling, you described yourself as an 
aviator. Colonel Swengros, your bio, you seem to be an MP from 
the get-go and have made that as a career. For people in the 
military who are not MPs but who have been recruited in this 
issue of being on police transition teams, is that a help, 
hindrance, or neutral with regard to career advance?
    Is there any grumbling about any of the folks who are 
assigned to these teams, that it might hold them back?
    Colonel McCarthy. It was an honor to serve with the 
soldiers, sailors and Marines out there, sir. It was a unique 
opportunity. That is all that matters.
    Dr. Snyder. Nobody felt they were going to be held back.
    And Colonel Swengros, you described that was the most 
difficult thing you have ever been involved in. How much of the 
difficulty was related to the language training of the American 
troops, or--which is a frustration that we all have, whether it 
is as physicians or business people, and we have had that for a 
couple of hundred of years, but it has been brought home in the 
last five years.
    How much of that could have been overcome if we did a 
better job of training our troops in foreign language skills?
    Colonel Swengros. Sir, I am not sure how much better it 
could be. I mean, you are talking dialects. And I think what we 
are trying to concentrate on is the basic language piece, and 
we are getting at that piece. But the other piece we are really 
paying attention to is the cultural awareness, but it is more 
than just an awareness, it is understanding body languages. And 
there are actually some courses we have been working with FLETC 
down in Georgia and then on our own trying to look at it.
    There are ways that you can talk to people, look at people 
and get an idea of just how truthful they are, how truthful 
they are not being.
    And so we are actually trying to work a little bit more 
than--along those lines understanding the dynamics of body 
language and expressions and how their expressions are 
different than ours.
    What we used was our interpreters, and as you get very 
close, especially my level, because I had interpreters who were 
American citizens, and I had one that had grown up in Baghdad 
and left after the 1991 Gulf War and came to the United States 
and he was coming back to serve. But he would point out to me, 
because I could understand, after a few months, I could 
understand the basic language. I knew kind of what the police 
chief was saying. But he would tell me, pull me aside 
afterwards and say well, he was really saying it in this manner 
or saying it in that manner.
    So that is a dynamic I am not sure we can get at throughout 
training.
    Dr. Snyder. I am not sure we tried very hard, though.
    I mean, we had a Cinco de Mayo festival a few weeks ago in 
Arkansas, and I think the speakers that spoke in Spanish were 
better received than the ones who spoke in English and had a 
Spanish translator. I think that is true, and I don't think we 
put enough investment in the military in all kinds of 
languages.
    Colonel Coates, you mentioned you could give us anecdotal 
stories of the bravery in Iraq.
    Colonel Coates. Certainly, sir.
    I can tell you on a daily basis I was in Ramadi where a 
police station was hit, and now that--the vehicle bombs are 
dump truck size. Basically loading a dump truck up with a ton 
or two of explosives and ramming it. It doesn't even have to 
get in within the perimeter. Just even if it goes outside the 
wall, the size and the magnitude of the explosion encompasses 
the whole complex.
    But I have seen a couple of those firsthand, and you saw 
the police stand their ground, did not run, did not break. They 
stood there. The chief of police was in Ramadi, a lieutenant 
colonel or colonel. He personally--he had about a 40-man 
assault with no U.S. Coalition-Iraqi Army thing on an apartment 
complex where the insurgents were holding people in there 
basically as hostages.
    We had Lieutenant Colonel Reed, who is chief of police of 
the highway patrol in Al Anbar Province. He personally was out 
there every day. We got him his vehicles and his fuels, and 
without any urging, he established patrols and routes between 
Ramadi and Rutbah and brought back tons of munitions with the 
people who were transporting it. There is a place called 
Humid's Garage, it is just on the outskirts of Fallujah. It is 
a gathering place of military age people at the truck, kind of 
pull-over place. One day on his own initiative he decided well, 
let us go raid it after the U.S. forces had done it twice and 
came up empty handed. He arrested something like 36 foreign 
fighters and probably on the order of a hundred insurgents that 
were mixed in with a group of a thousand there.
    So I can tell you that they have all of the abilities. A 
lot of what it came down to is what Lieutenant McCarthy said 
was leadership. They had somebody that led by example, that was 
strong. They were absolutely stone cold brave in the battle.
    But, you know, their success is based on getting the right 
leadership at the right place at the right time.
    Dr. Snyder. Thank you, Mr. Chairman.
    Mr. Meehan. Thank you.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much. And I wanted 
to say to you gentlemen, ladies and gentlemen, you are great. I 
sit here in bewilderment to think about how difficult your job 
is. And yet, as you have acknowledged, it has been slow, but 
there has been some progress. But I sit here thinking where 
this country is today. I wasn't going to do this, Mr. Chairman, 
but I want to read part of a quote because I think that the 
American people want this Congress to listen to you and make 
our decisions as to where are we going.
    General Matthew Ridgeway wrote a book called Soldier: The 
Memoirs of Matthew B. Ridgeway, 1956.
    I am only going to read part of a paragraph.
    To me, nothing could more tragically demonstrate our 
complete and utter moral bankruptcy than for us to deliberately 
initiate a prevented war. Once we take that absolutely fatal 
step, our civilization will be doomed.
    The reason I bring that up is because I think the American 
people have great love and affection and appreciation for those 
of you in uniform. I don't think there is any question about 
that. But when I listen here, you are talking about different 
cultures. You are talking about Shiites, you are talking about 
Sunnis, you are talking about Kurds, you are talking about what 
many of us think is a civil war. Some say sectarian, we think 
it is a civil war. Right or wrong, that is what we think.
    And then to listen to what you have accomplished and you 
have accomplished, there is no question about it, because you 
have taken an impossible, an impossible situation and you are 
giving the light a possibility. And it is a light at this 
point.
    Each one of you have spoken extremely well and 
knowledgeable on your job and what you do.
    What would you say to the American people as to how much 
time do we need to give to this effort to stand up a police 
force?
    Colonel Swengros. That is a very fair question, sir. I 
personally--you know, we go through these same questions. And I 
will personally say I appreciate folks asking the tough 
questions because at the end of the day, if I am going to be 
told to go out and do something, I at least want that decision 
to be an informed decision.
    Right, wrong or indifferent, as history might look at it 
10, 15 years from now, for me, going out there and doing what I 
did every day for a year, 7 days a week with a squad right in 
the middle of Baghdad or other places, and I guess I would tell 
folks just because it is hard doesn't mean it is impossible. 
Just because it is a long process doesn't mean it is a wrong 
process. I think the question we have all asked is what do we 
want at the end, what are the ramifications of not doing 
something?
    I talked to our soldiers about this. You know, what can 
they really effect and how do they go about doing it, and every 
one of them, you know, as they go through, especially having 
lived it, they really do see the progress. They see the lights 
in the eyes of the children. They see the faces of the female 
population who, for the most part, didn't really have a life as 
we know it.
    You see the direction they are trying to head in with all 
of the difficulties out there, and it kind of makes you stop 
and think from a ``doer'' level. I really believe we are on the 
right track, and we will continue down that track. We will 
continue to improve.
    We are fighting an enemy. That enemy is out there, and it 
is real. You can call it terrorists. You can call it 
insurgents. There are different pieces of it. And every one of 
them are vying for population control or control of that area.
    And those are dynamics that are causing us to adjust and to 
relook different--and go back to different ways of doing things 
before. And that is the complexity that I have talked about as 
well as the complexity of building a police force from nothing.
    So we do search for those answers, and we do try to find 
ways to effect change quickly. And I think most of the soldiers 
really do, when they get out of there, believe that they 
contributed to something, which, you know, from our standpoint 
is a good thing. We do see the progress.
    Mr. Jones. Let me just real quickly, I won't take too much 
of your time.
    Everything you said, I mean, again, I would agree with you. 
You are the professional. But when I came to Congress, this 
country was $4 trillion in debt. We are close to now over 10 
trillion. According to David Walker, the true debt of this 
Nation, if you take in all of the obligations and liabilities 
and brought them in this year to pay the bill this year would 
be $50 trillion. We are spending roughly $9.2 billion a month 
in Iraq. The American taxpayers are going to have to pay the 
bill.
    There is much frustration in this country because we felt, 
many of us, that the real war on terrorism was in Afghanistan. 
Bin Laden was our enemy. And we, in Iraq, said okay, we won't 
go into that.
    But the point is I know you can't say well, five years from 
now I expect this to happen. But if you could, and each one of 
you, and I am taking too much time and I will be through in 
just a second, would you just say, you know, Congressmen, we 
are going to be there ten years before we see a police force in 
the communities, the provinces or the country that can pretty 
much stand on its own. And I realize this is not really fair to 
ask you. But I am telling you that the American people, I feel 
their frustration. The American people have got to know that 
there is a fourth quarter to this game. Because if we stay in 
the second quarter, using a football analogy, and a third 
quarter and never see the fourth quarter, I don't know if this 
country can afford the blood and the money as it relates to 
Iraq.
    If you could just tell me, and your best guess, that you 
know what you are dealing with, you all articulated that. But 
tell me when in the world do you say to the American people I 
think we are getting a fairly decent, a fairly decent, not the 
best, but a decent police force? Some of the provinces or 
across the nation? I mean, the American people have a right. 
They are paying the price. The families are giving their sons 
and daughters. They have a right to know that there is a 
definition of success. That is the only--if you can answer 
that, fine. If you can't, I understand.
    Colonel Swengros. Yes, sir. I really cannot answer that in 
terms of time. I mean, I just--there is no crystal ball out 
there.
    I will tell you that having watched this very closely over 
four years from our business and then listening to the Al 
Anbar, because that was not a priority for us back then, if we 
are making progress then I see a brighter light at the end of 
the tunnel, and I see a bright light at the end of the tunnel. 
How much effort we are willing to continue to impart in that 
area will determine how long we are going to be there.
    We started, again, we are only talking 2 years from a 
concept of 70 teams, so now 230 to 300 teams, whatever that 
number is right now, and we are seeing that significant 
progress.
    The insurgents and the terrorists and the organized crimes 
all operate off of a similar aspect, and they go for the seams. 
They go where they are not going to be harassed by police, 
where they are not going to be harassed by an army. They will 
operate in areas that are not patroled just like your criminals 
here in the United States, and I think we are getting after 
that right now with these surges and these increases.
    We are getting after it. We are putting pressure in areas, 
and you can tell by the way the enemy is responding that we are 
having an effect. We, not only just the coalition forces, but 
the Iraqi police and the Iraqi army. They are the ones really 
being targeted right now. As the difference, if you remember in 
2004, 2005, a lot of attacks, a lot of major attacks on the 
civilian populace. Right now taking the brunt of it is the 
Iraqi army and the Iraqi Security Police.
    I cannot put a time on it. I apologize. I just can't.
    Mr. Jones. Thank you.
    I have taken too much time, but thank you, Mr. Chairman, 
and thank you, Colonel.
    Mr. Meehan. Mrs. Davis.
    Ms. Davis of California. Thank you, and I want to echo my 
colleagues' comments. The military has just performed 
extraordinarily. I think the concern that we all have, and I 
have expressed this before, is that we are a military at war 
and not a nation at war.
    So all of the burden has really fallen on you and on the 
families of our military.
    Could you talk a little bit about what we have done to try 
and track and identify the people who are serving as the 
police?
    You mentioned obviously pay and how you can track that. But 
I am concerned about the folks who don't show up. Do we know 
who they are? Do we know what they are doing? Are they, as far 
as you know, engaged in militias, and do we even have officers 
or individuals in the Iraqi police force who are engaging in 
other activities when they are not on the beat? What do we know 
about that? What kinds of efforts are being made to track that? 
Do you think it is important? Should we know?
    Colonel Coates. Absolutely, ma'am.
    First and foremost, what we are about is accountability. 
And, you know, our PTT teams down there, they have 
accountability, holding the Iraqi's completely responsible for 
what their responsibilities are to their society, their 
integrity and so on and so forth. We have had bad cops, we have 
had bad chiefs of police. When we find out, we instantly move 
to have them removed or in case of--for example, the chief of 
police of Sha'aban, who was the provincial chief of police, he 
stole the payroll one day, and he was thrown in jail, 
mysteriously released from jail and murdered two days later. 
Never recovered the money but the accountability is what we are 
about.
    There is no question there are police that have been behind 
probably insurgent activities and so forth. We, you know----
    Ms. Davis of California. How are we doing the tracking?
    Colonel Coates. First of all, we do biometrics. Every 
police officer in Al Anbar is biometrically recorded and put in 
a database. And we hold the key to that database.
    Ms. Davis of California. So if you mentioned that initially 
the Iraqi police arrested one insurgent and now it is more like 
50 or in a short period of time, of the insurgents that they 
are arresting, how many of them were identified biometrically 
to have been part of the police corps or in the military.
    Colonel Coates. I can give you one specific example. Our 
highway patrol went and arrested people on a highway that were 
basically robbing cars going back and forth. They had no police 
officers in Ramadi. They got their identification, the badges, 
and they also were identified in the Biometrics Automated 
Toolset (BAT) system. They were arrested by the highway police 
which, you know, obviously got our attention, and we tried to 
address that very quickly.
    I will tell you that is out there on a daily basis, and we 
are doing our best again to hold their system and them 
individually accountable to what they should be doing.
    Ms. Davis of California. Lieutenant Bridges, in your 
experience, what do you think people were doing when they 
weren't on the jobs.
    Lieutenant Bridges. To speak specifically, Mrs. Davis, I 
can't say exactly what they were doing, but I know they weren't 
at work. I can say that we did have suspicions, but no evidence 
of some of the IPs being involved in militias. We would go to 
different IP stations or we would even communicate within the 
coalition forces chain to ensure did you know this person, do 
you think he was involved, have you heard, maybe I would speak 
to one of the MIT or PIT team members, give a name to them to 
see what they have heard.
    So we were actively engaged in trying to identify some of 
our persons with whom we suspected.
    But once again, ma'am, we never really, you know, got any 
hard evidence, and, of course, they are not going to say we are 
a part of it. But my police chief had given us a list of names 
that he felt like was a part of the Mahdi militia and we were 
able to get those policemen not fired but transferred. Because 
everyone knows in Iraq when you do something wrong, you don't 
just necessarily get fired.
    Ms. Davis of California. If they don't get fired, where do 
they go? Do they join the militia?
    Lieutenant Bridges. It has been my experience--I have never 
seen one of the IPs fired. I have always seen them transferred 
to other stations, stations that may not be in their home area. 
But I have never experienced where an IP has been actually 
fired.
    Ms. Davis of California. I think what you are saying then 
is they are still in the system essentially. They may be a part 
of a militia, but they are transferred to another post.
    Lieutenant Bridges. Yes, ma'am. And that was one of our on-
ground frustrations as platoon leaders and commander. You are 
trying to get this guy moved because you really have strong 
suspicions, no evidence, that he may be a part of the militia 
or even part of the insurgency. You can't prove it. So you 
bring it to the general. He brings--feels the same way. Brings 
it to the Baghdad police. They transfer it. He may be a cousin 
to the police chief of the Baghdad headquarters. So the problem 
still exists, ma'am, but it just got transferred to somewhere 
else maybe further out so that that police chief no longer had 
to deal with it, and that was a big frustration.
    Ms. Davis of California. Do you have a window on what is 
happening once the insurgents are captured, what is going on 
there, where are they? Are they in jail? Do we have a role to 
play in that?
    Colonel Swengros. Ma'am, are you talking about the Iraqi--
from the Iraqi system when they are captured by the Iraqis?
    Ms. Davis of California. Yes.
    Colonel Swengros. I don't think there is any specific 
system out there. I mean, that is one of the dynamics of 
turning things over to the host nation for the Iraqis. You lose 
some of that visibility but as was talked--there is an 
increasing work on the judicial system, it is a triad out 
there. The law enforcement, the penal system, and there is an 
Military Membership Status Identifier (MMSI) focus right now, 
is those three arms and making sure that those cross-talk 
between to know what is going on.
    We implemented some policies where the four folks who are 
released, we sent the information to the Minister of Interior 
into the deputy minister of police affairs to do the cross-list 
check, and if they could spot a name of somebody that we were 
about to release because we didn't have anything more on them 
or whatever the situation was, then we did that prisoner 
transfer stuff. So there is some of that that is going on out 
there.
    But I don't know of any tracking mechanism.
    Ms. Davis of California. Did you want to say something, 
Colonel McCarthy?
    Colonel McCarthy. Yes, ma'am.
    When our police would arrest somebody, our advisors, 
soldiers, sailors, Marines, would go down there and do the 
biometric picture on them. We would also take a picture on them 
and put their name on the picture and put it through our 
channels.
    Now the investigative process, you know, due process for 
Iraqis is in 24 hours, they have to have a package against the 
suspect ready to go before an investigative person. Our 
equivalent of a District Attorney (DA). Then--there are no 
judges. They are hiding underground. They can't be found. So 
the mayor or the police chief can sign off to allow them to 
continue the investigation for another week.
    Now, if they have enough information there, a package to 
put before a magistrate, they can hold that guy until a 
magistrate appears.
    The burden is, you know, in the Muslim culture. They have 
to treat the prisoners, you know, like family. So it is a 
burden on their system, and they want to release them, but they 
can't exercise rule of law when they are continuing to----
    Ms. Davis of California. I guess the question is how does 
all of that, which is complicated and embedded cultural issues, 
how does that impact the work that you do and how--is there 
anything in the training that would be helpful to all of you to 
have been able to deal with that?
    Colonel McCarthy. Actually, with our U.S. police officers 
over there, the IPLOs. They actually work with the 
investigators to help them run the investigation properly. They 
ask these questions, let us put this evidence together. Have 
you logged it in? How are we tracking this so you can put 
together a, you know, a solid package before a judge? We use it 
as a training opportunity. We use it to, you know, ensure that 
they are practicing appropriate human rights behavior in the 
holding facilities and it keeps bad guys off the streets.
    Ms. Davis of California. One other question, and I am--I 
know that I certainly could go on. I think this has been very 
interesting.
    Thank you, Mr. Chairman.
    On the issue of translators. It is my understanding that 
Marines are training with translators even before they are 
going versus the Army, which is expected to find their 
translators in field. Is that true? Is that a problem? And do 
you usually have enough translators?
    And Lieutenant Bridges as well, how did you feel about 
translators and whether you had the support that you needed?
    Colonel Coates. If I may, as the committee noted, probably 
the biggest disadvantage that a transition team has, whether it 
is a military police or border, is the language. No question 
you are at a disadvantage and you are kind of doing things 
through a third person. All of the translators are, for the 
most part, contractors in Al Anbar, which is a Sunni province, 
all of the translators are Shia. And of course very quickly you 
have an Iranian working for you, you know, just describe some 
of the atmosphere when you are dealing with the locals when 
they see that.
    What we have done here real recently and one we are about 
to start, we are bringing our translators that are going to be 
paired up with their teams. They are coming to California, they 
go through the six-week course with their transition team and 
then they will go forward with their teams. So they have a pre-
employment training package.
    In addition to that, we are about to establish a language 
lab in our transition. We have our own building that will be in 
there so that there will be a language threshold mark every day 
through the six weeks that all members are going to have to 
hit. We are not going to make them native speakers. We are not 
going to make them conversational in anything. But they will be 
evaluated to task and to standard, and to graduate the course 
they are going to have to hit a certain level of Arabic. And 
with the translator there and the language lab, we hope to use 
the vehicle of absorbing some of those cultural differences 
that have been described.
    In Al Anbar, the dialect is different from town to village. 
You know where somebody comes from just by his accent or the 
words he uses. You know, you can tell the difference between 
somebody from Ramadi, Fallujah, or Al Qa'im. We used to have it 
years ago in certain parts of our cities and the States.
    Colonel Swengros. Ma'am, our training is somewhat along the 
same line. And I know we went over there and in preparing to go 
over there in 2004, our soldiers got 40 hours of Arabic 
training. We brought over linguists that work to help us 
through the translator piece together--I know each iteration--I 
was at Fort Lewis when we were doing this--we tapped into that 
capability. So and I know it occurred to me to meet the 
divisions and what have you.
    So it is more localized. We try to expose our folks to that 
dynamic of working with translators and what have you.
    We do meet up with a majority of our translators in theater 
because they are Iraqis. Those that are part of the military 
that come over with the translators, they are linked up with 
the unit as well. That was early on, but I couldn't give you an 
exact time.
    Lieutenant Bridges. Mrs. Davis, we have four linguists that 
we worked with and we did fall in on them and we found out a 
lot of information about what they knew based on our 
relationship with the outgoing unit. I can tell you that we had 
a great relationship with the interpreters. We had no issues of 
corruptness or them sharing different information with the 
Iraqi police. We never felt like we were set up because they 
went out with us daily.
    We came in trying to let them know that we appreciate what 
they do. We appreciate all of the information that they give 
us.
    So from our outgoing unit, it is imperative of us to listen 
to what they had to say about the existing linguists and once 
you show respect, once you show that you kind of trust them, 
maybe you don't totally trust them all the way, but you are 
trying to show them the semblance of trust so you can get 
whatever necessary information that you can to support the IP's 
movement. So we had a good experience with our linguists. We 
had no issue with them. No cause to believe that they were not 
on our team.
    Ms. Davis of California. Thank you very much.
    Colonel Felling. I am a reservist so I went over with my 
eyes wide open. I am a full-time law enforcement officer. When 
I went over, I had no idea that I was going to be working with 
Iraqis and Poles and Romanians, and you are asking specifically 
about translation. I would have never thought that it would 
work. Because you have Iraqis who also speak those languages. 
And trying to get things done in that environment is very, very 
difficult. But something that I thought would not work, it 
worked. It worked, difficult at times but it worked and it 
was--the translators and the interpreters who are really 
sacrificing themselves physically and taking themselves out of 
the environment that they are used to without the interpreters. 
It would be an impossible task.
    Ms. Davis of California. Thank you all very much.
    Mr. Meehan. Ms. Sanchez.
    Ms. Sanchez. Thank you for coming before us today.
    I am sorry. They closed down the Capitol compound for 
something going on in Cannon and didn't let me through. So I 
didn't get to hear your opening statements. I know some made 
some and some didn't.
    I want to associate myself with the initial comments of Ms. 
Davis, in particular the ones that talked about what a great 
job our military is doing. Because we, I think, to a large 
extent, almost everybody believes that that is the case. But, 
you know, we have argued that this is not about the military 
any longer, that it is about political and institutional 
capability by the Iraqi government and its people and the 
economic situation that exists in Iraq. And I just would like 
to put some comments, Mr. Chairman, into the record.
    With all due respect, Colonel Swengros, you spoke about our 
troops being over there and, you know, learning that, you know, 
women somehow have more rights now and the new system that the 
Iraq people are under. The reality is that just in March I was 
back in Iraq talking to women's rights groups there, and the 
fact of the matter is women had more rights in Iraq under 
Saddam than they have under the current constitution.
    In fact, one of the women, very well known lawyer, woman 
lawyer in Baghdad, said to me, my current rights under the 
constitution that you all have given us now is that I have the 
same rights as somebody who is mentally disabled or a child.
    So I want to put that on the record because it speaks to 
this whole issue of amending the constitution which the 
Democrats have pushed for as one of the products, one of the 
timetables, one of the milestones that we need to see in place 
in order to continue moving forward and putting our resources 
in and your lives on the line to get things done in Iraq.
    So the amendment of the Constitution is incredibly 
important. One, of course, the women know they are not going to 
get it through because they don't have enough representation 
there and issues go on, but they have less rights under the 
current constitution of Iraq than they did under Saddam 
because, remember, Saddam was secular. He did not put an 
Islamic overview on the constitution that he had at the time.
    This speaks to a lot of these issues of again going back to 
the political and the institutional and the economic.
    We keep reading in the newspaper and this is the case that 
there is really not a banking system in Iraq. So the police 
officers do the work, they get paid, now they got to go home 
wherever it is. They go home and some of them don't return and 
some of them are gone for a long time and some, many, many of 
them I would suggest this is where they are.
    So again, it is an institution problem that we have. We 
have got to get a banking system going in Iraq in order for us 
to be able to augment the great work that you are doing, and 
that the rest of our troops have put their lives on the line 
every day.
    This whole issue of the rule of law that the Lieutenant 
Colonel spoke to, which is again, so important. I mean, you can 
apprehend as many people as you can but if you don't have 
judges, you don't have magistrates, you don't have an ability 
to bring them forward, again, it is an institution problem and, 
you know, it is a big problem for us.
    We have got to get the local government and the provincial 
government on the line hitting milestones to put those 
institutions in place. It is a very difficult to do. It is not 
an easy thing. We look at Kosovo, and we are still nation 
building. I am not saying it is easy but we are seeing no 
improvement in the situation.
    So you can be doing a great job or the Iraqi policemen that 
you are training can be doing a great job, but it can be going 
nowhere. It can be a revolving door the next day out on the 
street against you.
    This issue of the Arabic language and probably the only--
anybody who has lived for a long time in a Muslim country is 
probably one of the few who has training in Arabic, and I would 
just say that is an incredible need for our military, and I 
think it would just improve our chances of being able to 
operate in these Muslim/Arabic speaking areas.
    And last, I would like to put on the record, Mr. Chairman, 
that this whole issue of accountability, and this also goes to 
our military, how do you account, where are these people, who 
have we trained? Where have they gone? Where are they? That is 
an incredibly important issue, and I would say we are doing a 
terrible job at it.
    I just mention again back to the recent trip that I took in 
March where I went and was talking to General Fell, who is of 
course the operating general under Petraeus for the four 
provinces, including Baghdad, and I asked him how many security 
and police from the Iraqi side do you have in those four 
provinces? And he said to me, said to me 37,568 to the number. 
I told him that just wasn't possible. There had to be a lot 
more. Why? Because if you look at the numbers we have trained, 
either everybody has gone home or the fact is that they are not 
working.
    And in talking to Petraeus less than an hour later, of 
course Petraeus said he was wrong. You know, maybe he didn't 
understand the question. Oh, no. We went completely through it. 
This whole issue of who we have trained, if they are on board, 
if they are helping, if they are working. If they are working 
against us, where are they, is an incredibly important one. And 
it is one that we have been asking about now for the last four 
years since this whole thing began.
    So if there is anything that I could ask the military to do 
is to figure out how do we account for these people we are 
training.
    And that is it. I really have no questions of the panel 
today.
    Thank you.
    Mr. Meehan. Thank you.
    Any of the panelists want to comment?
    Colonel Coates. In Al Anbar, there has been a large number 
of them killed as well. So there you talk about--the 
accountability is everything but to include in those numbers 
are the numbers that have been killed in the line of duty as 
well.
    Ms. Sanchez. I don't have a problem. It is just that the 
military can't give me those numbers. You can't give me an 
accountability. I know because I keep asking. How many police 
have we trained? Where have they come from? Who are they? What 
groups do they belong to? Where do you have them stationed? Why 
did they run away? Did you take your weapons with you?
    You really don't have an accountability system and I think 
this is something that is going to come back to bite us. We can 
do a great job, but you could be training the enemy in the long 
run.
    Mr. Meehan. Thank you.
    It is tradition in this subcommittee to have the staff 
counsel have an opportunity to ask some questions. So I would 
like to ask Susan McKenna, staff counsel, if she has some 
questions.
    Ms. McKenna. As you all know, last year, 2006, was the year 
of the police and the emphasis was on the generation of the IPS 
force. 2007 was the year of leadership and logistics, and I was 
wondering if you could comment on what that means on the street 
for the IPS.
    Colonel Swengros. I can tell you what I think it means in 
terms of how we operate. There are--getting at some of the 
institutions out there, there is a tremendous amount of 
accountability in terms of logistics. And part of that PMSR we 
talked about earlier where 68 pages, it started out at 200 
pages. It has to get at the questions that leadership is 
asking. How many of this is issued? Where is it? How were these 
people acting? What is your assessment of the leadership 
capabilities?
    So all of this, that is part of the assessments and the 
decisions to move to really put some emphasis, not that we are 
not going to take care of the police in 2007, but we are trying 
to get at the evolving issues. As you get a better police, you 
need better logistic systems in place. You get the police 
training in there. We are looking at now the second piece of 
that, and that is what we would consider as field training. 
Once you get out of the academy, you have certain training that 
you go through.
    Ms. McKenna. Are you seeing specific initiatives at the 
station, district and provincial level, that represent the 
execution of the year of leadership and logistics for the IPS?
    Colonel Swengros. I can tell you what Colonel Mike Lucius, 
who is the MP brigade commander who is operating in Baghdad. 
The answer is yes. And we started a little bit of this in 2005, 
leadership training, where we actually brought in the various 
leaders and he is doing that now, and we put them through some 
leadership training like leadership training seminars that we 
would do here in our own military. And that is seeing some 
pretty positive results.
    The logistics is something we continue to work on, and I 
know he is working hard with the Iraqis and in addressing some 
of the fuel problems and what have you that Lieutenant Bridges 
talked about. But I don't have the specifics on that.
    Colonel Coates. Yes. Part of what you brought up earlier 
was the settings and the conditions. You have to have a process 
in which the training and education system produces the police 
officer who can report and then has the proper equipment in 
place with a facility that supports his mission. And in Al 
Anbar, we have only been able to achieve that probably in the 
last six or seven months. That has been very challenging out 
there to where you can send people to the police academies. 
They come back. They have very limited equipment or they don't 
have any vehicles or they didn't have the communications 
infrastructure to do what they were required to do.
    And we are achieving that synchronization. The logistics 
portion of it is big. I think you know also lending to that 
accountability, to all of that that has been invested in this 
program.
    So but the leadership is absolutely huge. Our best 
districts have the strongest leaders. We have some of them 
coming back to the United States to attend the FBI Academy and 
to enhance their professionalism, and that will be the solution 
to the long term.
    Ms. McKenna. So is there a formal plan in place to develop 
that leadership for the IPS, and if so, who is responsible for 
it and where could we find it?
    Mr. Dominguez. I don't know the answer to that right now, 
ma'am. I know of no plan.
    Colonel Swengros. I do know that part of the police plan, 
the Iraqi police plan, is to really get that Baghdad police 
college. It used to be a three-year college and they want that 
thing--in fact, I think they have pretty much built it up. I am 
not sure of the status, but from their standpoint, they 
recognize the leadership and the technical development of their 
police. They are planning to go to a three-year police academy 
if they are not there yet.
    Ms. McKenna. Do the police transition teams have any input 
into who is selected to be a part of the--to be trained for the 
leadership? I mean, I know a lot of this has shifted over to 
the Iraqis so I am just interested to hear what your impact is 
on that selection.
    Colonel Coates. We had, ma'am, there is a nomination 
process through the governor through the provincial chief of 
police. He will submit that nomination to the MOI and the MOI 
will give its final blessing to it. But essentially, it lies 
within the purview of the governor to do that.
    Now again, there is a lot of negotiation, tribal influences 
and the sheikhs, and so on and so forth, to get to that 
consensus. Al Anbar had a very hard time getting a consensus 
between a governor and many of the chiefs of police that he 
nominated. They wanted somebody else, and that was always a 
daily battle on that.
    Colonel Felling. I think these gentlemen are being humble. 
I will speak on their behalf of being an outsider looking in. 
It takes--you asked about leadership, physical and moral 
courage. And these gentlemen and this young lady, they have got 
it and that is what it takes. To be a MIT and PIT team leader, 
to put your life in somebody's hands, being a law enforcement 
officer, I know there is a culture and these individuals put 
their lives in another culture's hands to train and to lead, 
and these individuals are the embodiment of leadership.
    Ms. McKenna. I am sorry if I was confusing, and I didn't 
mean our service members. I meant how are we developing the 
leadership of the IPS, and I imagine that they, many of them, 
are very courageous as well given the attrition that they 
suffer.
    Lieutenant Bridges. I would like to speak to that as well.
    When you talk about the year of the police, you envision 
closing the P3 book, if you will, and you are opening up the 
PTT book because the police partnership program went out when 
we were coming in and was phasing out. And when you talk about 
the year of the police, we envisioned trying at first to get an 
infrastructure of which we can be safe once we are there 
because we can't train them if our soldiers don't feel safe. So 
once we got the infrastructure to somewhat bearable to even 
train, we started to focus on, like I said in the beginning, 
just the basics of discipline, do they have on a uniform like 
Colonel McCarthy mentioned. Just those basic things.
    But once we got inside, Ms. McKenna, we really found out 
that there was some huge disparities between officers and NCOs. 
I mean, officers had uniforms whereas they did not feel that 
their peers or subordinates, there was a great need for them to 
have that. So we had to fix those issues. And just getting 
different areas set up was the most difficult in terms of 
personnel. Those pay problems.
    I, literally, my convoy literally went to the banks, we 
picked the money up from the bank, brought the money back to 
the IP station. Once we got the accounting officer set up, we 
had all of the IPs and a long line around the building. Okay. 
How many days were you at work. We had the legal officers there 
to tell us oh, no, they weren't there. So let us dock this pay. 
We are literally detracting money from his salary.
    So it was very difficult to try to implement policing into 
the year of the police before even working on the basics.
    Ms. Davis of California. If I could follow up for a second. 
I can't imagine--I mean, what you started with and where you 
are now. So I applaud that.
    But I just wanted to share because this is what is out in 
the kind of public consumption, and I am wondering about the 
reality on the ground for your Iraqis as well.
    There was a story this morning on NPR about the traffic cop 
basically and the job that they have to do, no lights are 
working, and I still am wondering why don't they have any 
traffic lights working in some areas in some bad intersections, 
but that basically, you know, they can't stop Americans. Every 
one is plowing through the intersections because they have to 
move very quickly, and we are aware of why.
    So how do you train someone to be a traffic cop in the 
middle of what sounds like tremendous chaos? And again, this is 
the story on NPR today. They have had some good reporters who 
have been pretty realistic. How do you deal with that, and 
again, what can we take away from that and what we are trying 
to do here? Any comments?
    Colonel Swengros. I would say--I worked with the traffic 
police. It is the national traffic police headquarters, it is 
in Baghdad. They operate both Baghdad and the other traffic 
police in each of the various provinces.
    And in terms of professionalism and technological awareness 
and development, they were--don't take this too literally--the 
model for what we were trying to do get the Iraqi police to. 
They actually had computer systems that somebody saved before 
all of the records were destroyed, and they were going through 
there and trying to--in the year of time we worked on it, we 
finally got where a traffic policeman could call at an 
intersection and say I have got this vehicle or this person, 
can you do a background check. Something like our National 
Crime Information Center (NCIC) check, and they would have to 
go to a separate computer and try to bring up those records, 
but that is the way they were working. They actually had it.
    The traffic police were probably one of the most effective 
police because nobody would mess with them because they kept 
the traffic flowing. And the nuances of military convoys 
rushing through convoys, they understood that and we never--and 
I worked in Baghdad all the time, they saw a convoy come, they 
actually kept traffic cleared so we could move through.
    Ms. Davis of California. So you think the reality on the 
ground for Iraqis is one of confidence and at least----
    Colonel Swengros. I think irrespective of traffic police, 
again, because it allows people to move about. So I think 
traffic police in my dealing with them for a year, I think in 
the entire year they had one policeman killed. One traffic 
policeman killed. And I was having about 120, 160 every 2 weeks 
of the regular police killed. And they were out there. They 
were out there in numbers.
    So I think maybe from an Iraqi person standpoint they say 
oh, the traffic is not good. It is not tied up but, you know, 
in the priority of things I am not sure how much of that really 
was a burden versus an inconvenience. But that is my 
perspective.
    Ms. Davis of California. Okay, thank you. I was just 
curious because that is what is out in the public, and it is 
helpful to have. If you have a different point of view that is 
right on, I would like to--I was appreciative of that.
    Thank you.
    Mr. Meehan. Mr. Spratt.
    Mr. Spratt. Thank you for your testimony, and I am sorry I 
was late arriving.
    So the questions I may ask could be redundant, but most of 
these cases are probably better repeating some of this.
    I was over in Iraq during the year of the police, 2006, and 
we had as a special focal point of our trip over there to 
inquire into what was happening, what plans were being laid. It 
seems to me if you had some basic goals, such as the number of 
who will process through police training, you attain those 
goals; is that correct? I mean, the object was to train 
200,000, the coalition was to train the lion's share of those 
and the Iraqis themselves were training some.
    But as I understand what you are reporting is that the 
numbers were attained. A couple hundred thousand troops, police 
were actually trained for that responsibility.
    Is that right or is that wrong?
    Colonel Coates. In 2006, sir, for Al Anbar Province we 
pretty much came within about a thousand of the set goal of 
11,330. So we had the training pipeline and stuff. We were 
getting very close to meeting that goal for that year.
    Mr. Spratt. Is that generally true for every year? The 
200,000 man goal was sufficiently attained?
    Colonel Swengros. I don't specifically have that--I would 
kind of agree with Colonel Coates. I think the numbers were 
fairly close. The dynamic that is out there is a number of 
killed and wounded in action that have to be replaced. I think 
you will see some figures where we were not able to reach the 
numbers because the numbers are changing. So I kind of agree 
with Colonel Coates. I think so, say yeah, they actually met 
every goal.
    Mr. Spratt. I am just saying your miracle goals. You are 
still short police in most places in Al Anbar. But in other 
places as well?
    Colonel Swengros. I think the question for sure is were you 
short trained police, and I think the answer is yes. It is 
always that opportunity over need and that continues. I think 
the number when we were there we were 74,000 or something. I 
wish we had put through more trained. That is why building the 
additional police academies----
    Mr. Spratt. What are the most notable deficiencies in the 
forces that are actually there dressed down, reporting for 
duty, but nevertheless not adequate for the job? What are the 
most glaring deficiencies?
    Colonel Coates. I think in the IPS service, the ministerial 
level to execute security force policy through the police, we 
have got a pretty good foundation going in Al Anbar at the 
police station and the district level. The provincial thing we 
are making progress. It is not where it should be yet. But the 
engagement with the ministerial level in Baghdad and all of the 
support and everything you need to administer a police 
department nationally, I think right now is probably the 
biggest lacking or the biggest challenge right out there now.
    Mr. Spratt. One of the apprehensions then, I guess in 2006, 
I guess it was, was they were concerned about the performance 
of the MOI, Minister of Interior, and corruption at the highest 
level, and they were determined about militia infiltration. At 
the lowest levels they were concerned about militia 
infiltration. Is that still a major concern, corruption in the 
MOI and militia infiltration in the likes of local police 
departments?
    Colonel Swengros. I don't have any direct information on 
that. I have talked to brigade commanders out there and he did 
not address that as a major concern that he is working on. But 
I don't have any information, sir.
    Mr. Spratt. Is there a basic division of labor amongst the 
security forces so that the border patrol will patrol the 
border and the armed forces actually engage in 
counterinsurgency or anti-insurgency and the police deal with 
crime, murder, assault an battery, rape, fraud, things of that 
nature?
    Colonel Coates. All of them contribute to overall security 
and the challenge has been to bring them all together. So there 
is a synchronization of capabilities that allow them to 
contribute to the overall security. There is a separate border, 
protective service, that clearly is defined. The IPS is clearly 
defined and the Iraqi Army is clearly defined.
    Our real challenge out there is in bringing them together 
and the sharing of information between the two of them. 
Ideally, in the city in--except in Ramadi, if the police were 
responsible for the internal security on a day-to-day street 
security, the Army would position itself on the outside.
    To reinforce or support or to make sure that the conditions 
remained to----
    Mr. Spratt. Are they, being the local police, oftentimes 
being pre-empted and pressed into service or with the Iraqi 
armed forces. For example, if there is a firefight or something 
of that nature, are they being diverted from their basic 
mission, which is to enforce civil laws and criminal laws?
    Colonel Coates. I think what they are mainly enforcing, 
sir, is that of the establishment of security. Bob, you can 
comment on the criminal activity.
    Mr. McCarthy. Sir, right now the criminal activity is 
insurgency. That is the danger on the street. And if you are 
worried about getting blown up at mosque, you are not worried 
about the pickpocket in the crowd.
    And we lost a station. We lost eight policemen. We lost 60 
citizens now, right after mosque on a Saturday. The police 
responded well.
    Mr. Spratt. Is there a distinction made between kidnapping, 
let's say, or a major theft or breaking and entering and 
fighting the insurgency and, if the police aren't allowed to 
concentrate on what they are doing, what you are saying is that 
the main problem is violence.
    Colonel McCarthy. Yes, sir and, in the Habbaniyah district 
where I was, tribal law, shari'a law, and then civil law is a 
distant show. And any theft and they are pointing fingers at 
each other, it goes to Sheikh Hamad and Sheikh Hamad determines 
it and they do reconciliations.
    Mr. Spratt. So what do the police do then, do they augment 
the national armed forces?
    Colonel McCarthy. They man entry control points into the 
villages, they man their stations, they man towers, they do 
security patrols up and down the different routes and in and 
about the villages. They maintain a security presence on the 
street to keep the insurgents underground because people can't 
go to the store without the police there. They can't go to 
school without the police there because the army is focused 
elsewhere and the coalition is obviously in their own battle 
space. Where I was, I was in an Iraqi army battle space where 
that was superimposed on a police jurisdiction. You know, so 
you have command and control issues, you have battle space 
apportionment issues all the time. So you have to work together 
in the counterinsurgency fight or you are going to fail.
    Mr. Spratt. To what extent are civil police functions 
operable, possible, if you don't have a judicial system and a 
penal system in place that is functional? Is that a problem 
that they arrest people, put them in jail and don't have a 
system of justice that can routinely process them?
    Colonel Swengros. Sir, as Ms. Sanchez said before, this is 
more than--the solution has to be more than a security piece. 
The security piece is tremendously important but there are 
those, that triad that you have to get to in any society, 
especially in one such as Iraq with insurgents, the penal, the 
judicial and the law enforcement piece of it. So yes, it is a 
problem and it is a problem that they have been addressing from 
the start. As simple as in a police station, we go in there and 
try and track who is sitting in the local jail cell for what 
reason and did they meet the certain timelines that had been 
established by the Iraqi government for keeping people under 
investigation or in jail and those types of things. So that, is 
it a problem, overcrowding, if they don't get to the judicial, 
it just compiles as you go through that. But does that, how 
much does that really affect the security battle, the 
insurgents battle, again I will agree with Lieutenant Colonel 
McCarthy that you don't separate the army, you don't separate 
the police.
    When you do that, the more seams you have in your 
operations, the more that the insurgents or the organized crime 
is going to operate in, and it is trying to close down those 
seams.
    One of the things that the army has pursued over this last 
year with JIEDDO, the Improvised Explosive Device (IED) defeat 
organization, is the police intelligence operations. And that 
is taking the law enforcement mindset from looking at whether 
it is an IED or another criminal activity--stolen cars or those 
types of things--and trying to figure out where the dots can be 
connected and if you address it from a policing mindset to get 
at the insurgent activity. And they are finding some success in 
that. It is less than a year old. It is hinged on bringing in 
retired or other senior law enforcement with criminal 
investigative type experience to go in there, and they are 
putting it in there within the Brigade Combat Teams (BCTs) to 
get at the police intelligence to complement the military 
intelligence, so when the commander looks at what is going on 
on the ground you have both pieces and you make sure you are 
not missing any.
    So we are seeing some tremendous strides in that. And as 
you operate with the Iraqi police, when we started out you may 
never see an Iraqi with an army sitting down at a table to plan 
an operation or conduct an operation, and each one of us have 
many stories where they do that now to get at that security 
picture. So I see some positive stuff in those areas.
    Mr. Spratt. Thank you all for your testimony and for your 
service to our country.
    Mr. Meehan. Any other questions? Let me just say that all 
of us who traveled to meet with our men and women around the 
world, whether it be Iraq, Afghanistan, Kosovo or even in the 
United States, we are always impressed but this panel this 
morning has been outstanding. And I think I speak for all the 
members when I say we thank you from the bottom of our hearts 
for your service to your country. We are in awe of the job that 
you are all are doing every day for the United States of 
America. So thank you very much for your service, and thank you 
very much for testifying before us this morning. Thanks.
    [Whereupon, at 11:20 a.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                              May 24, 2007

=======================================================================



              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 24, 2007

=======================================================================


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                              May 24, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MEEHAN

    Mr. Meehan. On page 9 of your testimony, you write that ``I MEF had 
to send representatives to MOI, MOF, and the Baghdad treasury in order 
to get IPs paid.'' Did you try to engage MNSTC-I or CPATT or the MOI 
Transition Team to assist with this? What was their response?
    Colonel Coates. We were heavily engaged with MOI-TT and CPATT when 
I MEF first began dealing with this issue in the spring of 2006. Upon 
arrival in Al Anbar in Feb. 06, I MEF sent a full time liaison officer 
(LNO) to work at CPATT representing and ensuring that CPATT understood 
the unique issues of Al Anbar. As such, this LNO was designated as the 
action officer by CPATT along with a few other individuals on the CPATT 
staff to initiate the restarting of the payment of salaries to the 
Iraqi Police in Al Anbar. I MEF always sent representatives to Baghdad 
with our Iraqi counterparts to ensure the pay process was executed (The 
Anbar Provincial Committee of Three-Senior Iraqi Police officials 
tasked with the execution of the pay roll). For the initial trip to 
Baghdad during mid-June 2006 to broker the initial meeting with MOI & 
MOF officials, there was a large delegation from the Coalition to 
include the MOI-TT representatives that were primarily from their 
finance division. After this first meeting, the log jam was cleared and 
the Iraqi Police of Al Anbar were issued their salaries. The number of 
representatives dropped off for each subsequent salary execution drill. 
For the next several pay drills/trips to Baghdad, I MEF 
representatives/LNO along with Mohammed (Iraqi/American who worked at 
MOI-TT as an advisor and had a finance/accounting degree), with a Lt. 
Col. from MOI-TT (finance background) walked and coordinated the pay 
day drill for Al Anbar directly with MOI, MOF and the Central bank. 
This also included the transporting of the salaries to Al Anbar by the 
Coalition.
    Mr. Meehan. On page 9 of your testimony, you also mention that 
``the process for obtaining hiring orders is relatively simple but 
often bogged down by the slow bureaucracy within MOL'' Does CPATT or 
the MOI transition team have a plan for fixing the ``hiring orders'' 
after-training delay?
    Colonel Coates. By Jan. 07, CPATT was reorganized and remissioned 
into the MOI-TT. I am not aware of any plan for the Iraqis to change 
the process for issuing ``Hiring Orders''. The I MEF LNO/
representatives would initiate the action by sending graduating class 
rosters to coalition counterparts with in the MOI and in most cases, 
hiring orders were issued within a 10 day period by MOI. During our 
tenure, the I MEF Liaison Officer brokered the hiring orders process by 
walking the request for orders office to office with MOI Iraqi 
counterparts. The Iraqis were always slow in dealing with anything and 
seemed very apprehensive in changing their current bureaucratic ways.
    Mr. Meehan. Since JIPTC is no longer training IPs and Al Anbar's 
Police College is not yet operational, are all recruits attending the 
Baghdad Police College with all the attendant difficulties you identify 
in your testimony (page 6)? Has the USMC chain of command engaged with 
the MNSTC-I and CPATT chain of command to try to continue to send 
recruits to Jordan until Al Anbar's college is open, particularly given 
the security and sectarian issues? If so, what was CPATT's response?
    Colonel Coates. I MEF immediately raised the operational impact of 
the loss of JIPTC and issues with the Bagdad Police College in Nov. 
2006. I MEF requested in writing that the decision to close JIPTC be 
reconsidered and that JIPTC remain open. MNSTC-I with the endorsement 
of CPATT delayed the closing of JIPTC for two months which in turn 
provided I MEF with two additional class dates at JIPTC. The additional 
classes provided the opportunity to train over 1500 Iraqi Police in Al 
Anbar. In concert with the aforementioned, CPATT funded the 
construction of an interim Police Academy for Al Anbar which opened in 
early June 07 and will graduate the first class of 550 police recruits 
in mid August 07.

                                  <all>

</pre></body></html>
